Report No. DODIG-2013-098            June 28, 2013




          Special Plans and Operations




     Assessment of U.S. Military Cemeteries
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                    4800 MARK CENTER DRIVE
                                 ALEXANDRIA, VIRGINIA 22350-1500



                                                                                        June 28, 2013


MEMORANDUM FOR DISTRIBUTION


SUBJECT: Assessment of U.S. Military Cemeteries (Report No. D2013-098)


       The DoD IG is providing this report for review and comment. The team performed this
assessment in response to a congressional request in the 2012 NDAA. We considered
management conm1ents on a draft of this report when preparing the final report.


       We request management comments by July 22, 2013 from the following redirected and
follow-up recommendations as follows:


       •   Under Secretary of Defense (Personnel and Readiness) provide responses to 3.a.(l),
           3.a.(2), 3.a.(3), and 3.a.(4).
       •   Under Secretary of Defense (Acquisition, Teclmology, and Logistics) provide
           responses to l.a., 2.a., 3.c., 5.a., and 6.
       •   Assistant Secretary of the Navy for Comptroller/Financial Management provide a
           response to 5.b.
       •   Assistant Secretary of the Navy, Manpower and Reserve Affairs provide additional
           responses to l .b.(2), l.b.(3), l .b.(4), l.b.(5), 2.c., and 3b.
       •   Assistant Secretary of the Air Force, Manpower and Reserve Affairs provide
           additional responses to l.b.(2), l .b.(3), l.b.(4), l.b.(5), 2.c., and 3b.


       Copies of yolU' comments must have the actual signature of the authorizing official for
your organization. We are unable to accept the I Signed I symbol in place of the actual signature.


       We appreciate the comtesies extended to the staff. Please direct questions to Mr. John E.
Taylor at (703) 604-8766 (DSN 664-8766), john.taylor@dodig.mil.




                                                Ambassa or Kenneth P. Moorefield
                                                Deputy l1 spector General
                                                   Special Plans and Operations
DISTRIBUTION:

SECRETARY OF DEFENSE
DEPUTY SECRETARY OF DEFENSE
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
  LOGISTICS
UNDER SECRETARY OF DEFENSE FOR COMPTROLLER
ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)

DEPARTMENT OF THE ARMY
ARMY INSTALLATION MANAGEMENT COMMAND
EXECUTIVE DIRECTOR, ARMY NATIONAL MILITARY CEMETERIES
INSPECTOR GENERAL OF THE ARMY

DEPARTMENT OF THE NAVY
ASSISTANT SECRETARY OF THE NAVY (MANPOWER AND RESERVE AFFAIRS)
ASSISTANT SECRETARY OF THE NAVY (COMPTROLLER/FINANCIAL
     MANAGEMENT)
COMMANDER, NAVAL INSTALLATION COMMAND
INSPECTOR GENERAL OF THE NAVY

DEPARTMENT OF THE AIR FORCE
ASSISTANT SECRETARY OF THE AIR FORCE (MANPOWER AND RESERVE AFFAIRS)
ASSISTANT SECRETARY OF THE AIR FORCE (INSTALLATIONS, ENVIRONMENT,
     AND LOGISTICS)
INSPECTOR GENERAL OF THE AIR FORCE
               Results in Brief: Assessment of U.S.
               Military Cemeteries


Who Should Read This Report?
Personnel within the Office of the Secretary of Defense (OSD), the Joint Staff, the Military
Departments, and Agencies that are responsible for the operations of military cemeteries should
read this report.

Background
The fieldwork for this assessment was conducted from April to September 2012. The team
evaluated adequacy of and adherence to the statutes, policies, and regulations governing the
management, oversight, operations, and interments or inurnments (or both) by those cemeteries,
less those of the U.S. military academies, under the jurisdiction of the military departments.

This was the first time these cemeteries had been examined by an outside agency. The team used
the reports listed in Appendix B as a starting point. While we found that each cemetery had
different circumstances, they all had the same mission and the same types of challenges and
issues.

Results
The report is divided into four parts: (1) Good News Stories; (2) U.S. Military Cemeteries; (3)
Other Matters; and (4) Individual Installations. The report makes six observations and 20
recommendations. The results are discussed therein.

Overview
We found that in general the Installation and Garrison commanders and their cemetery
management staffs were very dedicated and conscientious with respect to management of
cemetery operations. This was the first time most of these cemeteries had ever received an
oversight inspection from an organization outside the installation. Overall, the Services do well
at honoring the dead.

Cemetery Management. There should be a designated official in charge of the
cemetery at the installation level. Committees or split responsibility has not been sufficiently
effective. Cemeteries with full time directors and a single point of contact (POC) had fewer
issues. Cemeteries with part time or additional duty directors had more issues, as no one
individual was in charge, and oversight was missing or neglected.

Cemetery Operations. Annual inspections required by Army regulation were
incomplete or had not been performed at all. The Navy and Air Force do not have an annual



                                                 i
inspection requirement. However, these Services should implement an oversight mechanism to
assure that installation commanders administer and maintain cemeteries appropriately.

Regulations, Guidance, and Cemetery Management. Regulations and
guidance at OSD and Service levels were inadequate. Cemetery managers would benefit from
formalized training. OSD should establish an overarching cemetery regulation and the Services
should re-write theirs.

Funding. Inadequate funding for cemetery operations at military bases remained an issue
across all Services. Commanders report that they were operating on tight budgets and faced
multiple funding decisions among competing priorities. Given its importance, they would like a
discrete funding line for cemetery operations support.

Civilian Cemeteries. There are over 700 individual civilian cemeteries on Military
installations. Currently there are no policy guidelines for the management of civilian cemeteries.
Some questions raised were:

   •   Where and what are the legal agreements for these cemeteries?
   •   What responsibilities reside with the Services to care for and maintain them?
   •   And, what are the funding lines, if any, to maintain them?

Management Comments and Our Response
The Office of the Under Secretary of Defense for Personnel and Readiness, Executive Director
for Army National Military Cemeteries, Assistant Secretary of the Navy for Manpower and
Reserve Affairs, and Assistant Secretary of the Air Force for Manpower and Reserve Affairs
provided good and, for the most part, thoughtful comments to the draft report. The Army has
taken the lead on cemetery management issues and is quickly establishing a single standard for
all their cemeteries. These may be translated to the rest of DoD.

Based on input from management, we:
    • redirected five recommendations to the Under Secretary of Defense for Acquisition,
       Technology, and Logistics;
    • redirected one recommendation to the Assistant Secretary of the Navy for
       Comptroller/Financial Management; and
    • deleted two recommendations.

We request that the Assistant Secretary of the Navy for Manpower and Reserve Affairs provide
more detailed answers to six recommendations, and the Assistant Secretary of the Air Force for
Manpower and Reserve Affairs provide more detailed answers to six recommendations.

See the Recommendations Table on the following page for specifics.




                                                ii
Recommendations Table
We request that you provide comments to the following recommendations.

Management                         Recommendations              No Additional Comments
                                   Requiring Comment            Required
Under Secretary of Defense for     3.a.(1). 3.a.(2), 3.a.(3),
Personnel and Readiness            3.a.(4)

Under Secretary of Defense for     1.a., 2.a., 3.c., 5.a., 6
Acquisition, Technology, and
Logistics
Assistant Secretary of the Navy,   1.b.(2), 1.b.(3), 1.b.(4),   1.b.(1),
Manpower and Reserve Affairs       1.b.(5), 2.c., 3.b.
Assistant Secretary of the Navy,   5.b.
Comptroller/Financial
Management
Assistant Secretary of the Air     1.b.(2), 1.b.(3), 1.b.(4),   1.b.(1), 5.b.
Force, Manpower and Reserve        1.b.(5), 2.c., 3.b.
Affairs
Executive Director of the Army                                  1.b.(1), 1.b.(2), 1.b.(3),
National Cemeteries Program                                     1.b.(4), 1.b.(5), 2.b., 3.b.,
                                                                4.a., 4.b., 5.b.

Total Recommendations in this Report: 20

Please provide comments by July 22, 2013.




                                                iii
This Page Intentionally Left Blank




                iv
Table of Contents
RESULTS IN BRIEF..................................................................................................................... i
          Recommendations Table .................................................................................................... iii
INTRODUCTION......................................................................................................................... 1
          Background ......................................................................................................................... 1
          Public Laws ......................................................................................................................... 1
          Objectives ........................................................................................................................... 1
          Methodology of Approach .................................................................................................. 2
          Criteria ................................................................................................................................ 4
PART I – GOOD NEWS STORIES ............................................................................................ 7
PART II – U.S. MILITARY CEMETERIES ............................................................................. 9
          Observation 1. Cemetery Operations and Management .................................................. 11
          Observation 2. Policy and Guidance for Cemetery Operations Varies Between
             Services and Sites ....................................................................................................... 19
          Observation 3. Recordkeeping Standards and Guidelines for Military Cemeteries
             Vary Between Installations and Services .................................................................... 29
          Observation 4. Issues with Contracting for Cemetery Services ...................................... 37
          Observation 5. Cemetery Funding ................................................................................... 43
          Observation 6. Civilian Cemeteries ................................................................................. 47
PART III – OTHER MATTERS ............................................................................................... 51
          Other Matters. ................................................................................................................... 53
PART IV – INDIVIDUAL INSTALLATIONS........................................................................ 57
          Individual Installation Statistics and Comments............................................................... 59
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS ....................................... 61
APPENDIX B. SUMMARY OF PRIOR COVERAGE ......................................................... 63
APPENDIX C. GLOSSARY ..................................................................................................... 65
APPENDIX D. ORGANIZATIONS CONTACTED AND VISITED (INCLUDING
   CEMETERIES) ................................................................................................................... 67
APPENDIX E. DOD AND SERVICE POLICIES .................................................................. 69
APPENDIX F. 2012 NATIONAL DEFENSE AUTHORIZATION ACT ............................ 73
APPENDIX G. MATRIX .......................................................................................................... 75
APPENDIX H. STATISTICAL ANALYSIS........................................................................... 77
APPENDIX I. MANAGEMENT COMMENTS ..................................................................... 79
APPENDIX J. REPORT DISTRIBUTION........................................................................... 101
This Page Intentionally Left Blank
Introduction
Background
After recent incidents 1 leading to a significant level of concern and further inspection activity at
Arlington National Cemetery, coupled with heightened Congressional interest, the 2012 National
Defense Authorization Act, section 592, directed the Department of Defense Inspector General
(DoD IG) to conduct an inspection of the cemeteries over which Military Services have
jurisdiction. DoD IG conducted the related field assessment from April to September 2012.

Public Laws
Pursuant to the National Defense Authorization Act for Fiscal Year 2012 (NDAA 2012) Section
592, Paragraph (a), the Inspectors General of the Military Departments were directed to conduct
an inspection of each Military Cemetery 2 under the jurisdiction of that military department and,
based on the findings of these inspections, make recommendations for the regulation,
management, oversight, and operation of the military cemeteries. Pursuant to Paragraph (c)(1),
DoD IG was directed to conduct an inspection of a statistically valid sample of cemeteries
located at current or former military installations inside and outside the United States with the
objectives stated below for all cemeteries within the jurisdiction of the military departments. 3
Pursuant to Paragraph (d)(2), the DoD IG shall submit to the Committees on Armed Services of
the Senate and the House of Representatives a report containing findings and observations
resulting from the inspections conducted and the recommendations for corrective actions.

Pursuant to Paragraphs (a, b, and e), the Service IGs were tasked with inspecting their respective
Service Academy cemeteries. The DoD IG had members present as observers during each of
these inspections.

Objectives
On January 24, 2012, the DoD IG announced an assessment to determine the adequacy of and
adherence to the statutes, policies, and regulations governing the management, oversight,
operations, and interments or inurnments (or both) by those cemeteries, less those of the U.S.
military academies, under the jurisdiction of the military departments.

Specifically, the inspections of each of the military cemeteries will include an assessment of: 4

    •   The adequacy of the statutes, policies and regulations governing the management,
        oversight, operations, and interments or inurnments (or both) of the military cemeteries


1
  For examples see: “Grave offenses at Arlington National Cemetery.” Accessed at: http://www.salon.com
/2009/07/16/Arlington _national_cemetery. “Errors at Arlington affected 211 Graves.” Accessed at:
http://www.Armytimes.com/news /2010/06/military_arlington_cemetery_061010w.
2
  See Appendix C – Glossary for definition of Military Cemetery.
3
  In order to project with a high confidence level the degree of compliance.
4
  Paragraph (b) of the 2012 NDAA. We used these based on conversations with House Armed Services Committee
(HASC) staff members.

                                                    1
          under the jurisdictions of that respective military department and the adherence of such
          cemeteries to the existing statutes, policies, and regulations.
      •   The system(s) employed to fully account for and accurately identify the remains
          interred or inurned in each cemetery.
      •   The contracts, contracting processes, and oversight management of those contracts and
          processes to ensure compliance with the DoD and the military department guidelines.
      •   The history and adequacy of the oversight conducted by the Secretary of the military
          department over such military cemeteries and the adequacy of the corrective actions
          taken as a result of that oversight.
      •   The statutory and policy guidance governing the authorization for the Secretary of each
          responsible military department to operate such military cemeteries and an assessment
          of the budget and appropriations structure and history of such military cemeteries.
      •   Such other matters as the Inspector General considers being appropriate.

Methodology of Approach
The legislation specifically directed the DoD IG to conduct an inspection of a statistically valid
sample of cemeteries located at current and former military installations inside and outside the
U.S. that are under the jurisdiction of the military departments. However, the DoD IG, in
collaboration with House Armed Services Committee staff members, determined that the vast
majority of the cemeteries should be visited and assessed against the stated criteria.

Heretofore, a commonly known prevailing condition was that the DoD policies and cemetery
management procedures were fragmented, at best, as they applied to oversight and
management practices and operating procedures across the Services. On that basis, and
because the number of cemeteries in the candidate pool was relatively small, the consensus
(HASC staff, DoD IG, and Service IGs) decision was that the DoD IG would conduct an
assessment at the majority of the cemeteries fitting the eligibility criteria; thereby, creating the
opportunity to address the observations and recommendations for corrective actions at the DoD
level for all of the Services to embrace.

In order to complete the site visit and field work portions of the assessment in a reasonable
amount of time, a statistical sampling protocol applying to the universe of grave sites was
employed at each location with a randomly generated statistical sample of those
interred/inurned at that location. 5 Available records and headstone data for the sample names
were then evaluated against the criteria established in the legislation and discrepancies were
noted on a hierarchical scale of severity requiring further management attention. The
discrepancies were categorized into two discrepancy type tiers as follows:

      •   Tier I: These include cases where a record exists for a decedent, but his or her
          information is not reflected on the marker or the headstone is missing.
      •   Tier II: These include errors such as missing records, name (misspellings) and incorrect
          dates of birth or death and any other discrepancy that requires an update to a record or
          the spreadsheet. 6

5
    Appendix H contains the complete Statistical Analysis.
6
    Minimum information requested from each installation: Name, Date of Death, and Date of Interment.

                                                        2
                              Table 1. Discrepancy Types and Examples
         Discrepancy                     Field(s)                                 Example
            Type

            TIER I          MISSING HEADSTONE                     A record exists but the headstone is
                                                                  missing

                            MISSING INTERMENT                     A record exists but headstone is
                                                                  missing the interment info

           TIER II          MISSING RECORD 7                      A headstone exists but there is no
                                                                  corresponding record to support
                            NAME                                  Names on record(s) and headstones do
                                                                  not match
                            DATE OF BIRTH                         Date of birth on record(s) and
                                                                  headstones do not match
                            DATE OF DEATH                         Date of death on record(s) and
                                                                  headstones do not match
                            DATE OF INTERMENT                     Date of Interment on record(s) do not
                                                                  match
                            SPREADSHEET                           Errors on spreadsheet (differ) from that
                                                                  of records and/or headstones
                            RANK/SERVICE BRANCH                   Differences between record(s) and
                                                                  headstone
                            WARS FOUGHT                           Differences between record(s) and
                                                                  headstone
                            AWARDS/HONORS                         Differences between record(s) and
                                                                  headstone
                            GRAVE LOCATOR                         The grave locator on record(s) and
                                                                  headstone do not match
                            ADMINISTRATION                        Errors between the administration’s
                                                                  records and reality (e.g. duplicate
                                                                  entries in the spreadsheet, disinterment
                                                                  not recorded, negligence regarding
                                                                  temporary markers, detailed
                                                                  information not provided to the
                                                                  Inspector General)

In addition to the evaluations of individual records and headstones for full accountability and
identification of the decedent’s remains, the assessment also evaluated the application of and
management compliance with the other more general criteria called out in the legislation
requiring review and evaluation. Specifically, the areas of:
    •   contracts type,
    •   administration and oversight,
    •   compliance with directives and other management tools,

7
  At Arlington National Cemetery (ANC), this would be a Tier I error but given the lack of guidance/regulations on
records we moved this to a Tier II as a headstone exists and a record may be created from that information.

                                                        3
      •   cemetery management,
      •   adequacy of operating and maintenance funding, and
      •   critical assessment of the grounds maintenance with particular attention directed towards
          a respectful and attractive physical condition of the cemetery proper.

We identified two immediate problems. One was a lack of knowledge at the Service level of
which installations had cemeteries under their jurisdictions. The initial feedback from the
Services was that there were over 60 installations with military cemeteries. As the assessment
progressed, that number was revised downward by the Services. Eventually we opted to visit 34
installations of which 29 had military cemeteries and the other five had civilian cemeteries 8 on
the military base. We added Marine Corps Base Quantico (civilian cemeteries) to ensure all
Services were included in the assessment. The second problem was the lack of available
electronic records to use in order to produce a sample of those interred. We requested from each
installation with a military cemetery a spreadsheet with the following information (as a
minimum): Name, Date of Death, and Date of Burial. This information was decided upon after a
review of the pertinent regulations and observation of the three Service academy inspections by
the Service Inspectors General.

Table 2 below depicts the rollup of the statistical analysis performed as part of this assessment.
The data is further discussed under Observation 1 in the main body of the report. 9

                                 Table 2. Rollup of Statistical Analysis
                                     Cemetery Statistical Analysis
                         Population     Sample         Observed Errors            Projection
                                                      Tier I      Tier II     Tier I       Tier II
     DoD Rollup           34,123         6,387         21         2,727        73         12,140

The DoD IG team met with and kept updated the following agencies throughout this assessment:
Army National Cemetery Program staff, Service IG staffs, Service Installation Command staffs,
Service Secretariat staffs, and OSD staff assigned to the Under Secretary of Defense for
Personnel and Readiness. The intent of these meetings and emails was to ensure all affected
parties knew what we found while out at the various installations.

Criteria
To meet the objectives, expectations, and intent of the legislation, a system of protocols and
specific and detailed review/analysis steps were developed and consistently applied at each
location visited. We developed these based on a review of the Arlington National Cemetery
Gravesite Accountability Task Force “Report to Congress on Gravesite Accountability Study
Findings” dated 22 December 2011, and our observations of the Service academy inspections.

The protocols/analysis steps included a determination of the accuracy of the following:

      1. Available records.

8
    See Appendix C, Glossary, for definition of civilian cemeteries.
9
    See Appendix H for the entire statistical analysis write up.

                                                           4
2.   The correctness of the grave stone inscriptions - as they relate to several key factors:
     •   name of the interred – correct spelling, sponsor, spouse, dependent child, other
         eligible family member;
     •   date of birth, date of death, and date of interment;
     •   Service affiliation or dependent status;
     •   rank/grade; and
     •   records match actual grave plot location of the deceased.

3.   Assess the adequacy of overall management and maintenance of the cemetery:
     •   grounds maintained in a neat and respectful fashion;
     •   interment process is handled with decorum and professionalism – intake process is
         complete and specific steps are consistently applied from receiving the remains and
         preparing the burial site to obtaining all necessary information for the compilation of
         accurate and complete records;
     •   suspense tracking system in place to ensure that the temporary markers are replaced
         with permanent markers within the specified timeframe;
     •   where contracts and contracting personnel were used: reviewed the contract oversight
         process – who controls and who monitors to ensure contract compliance;
     •   how the contracts are funded (i.e., programmed funding from the installation’s
         operating budget or specifically programmed as a separate line item on service budget
         formulation) and budget allocation documents;
     •   what types of contracts are used – e.g., grounds maintenance, burial site preparation,
         grave marker preparation and placement, or other;
     •   the broad spectrum of regulatory and policy guidance flowing down from the Office
         of the Secretary of Defense and the respective military departments for a
         determination of adequacy and consistency from one Service to the next; and
     •   other areas of the Garrison or Base cemetery management that were considered
         appropriate to highlight as conditions needing correction or management processes
         that were considered ‘best practices’ for recommendation to other locations.




                                              5
This Page Intentionally Left Blank




                6
Part I – Good News Stories
The report notes three examples of good news stories in cemetery operations and management.
They include, among others:

All Interments 10 Accounted For. All interments were accounted for within our sample
of over 6,300 interments from a population of over 34,000 in the 34 cemeteries assessed.
However, complete and accurate accountability may become an issue if records are not corrected
and kept up to date. This is especially important at those open cemeteries without a full-time/
dedicated cemetery director.

Geographic Information System. The Geographic Information System (GIS) is an
automated tool for locating a deceased’s grave site. Some of the cemeteries visited had
implemented GIS into their cemetery operations to better account for headstones, provide
locations for visitors, and automate cemetery operations. Some cemeteries had uploaded pictures
of the headstones to the GIS which allowed the plot to be viewed online.

Army Post Cemeteries Way Ahead. The Army Cemetery Program Executive Director
visited seven Army Post Cemeteries and published the “Army Post Cemeteries Way Ahead”
memo on September 11, 2012, to provide further guidance on policies applicable to the Army
cemeteries. Policy guidance included gravesite accountability, record keeping, and funding,
among other issues.




10
     This includes both those interred (in-ground burials) and inurned (“burial” of ashes in a columbarium).

                                                           7
This Page Intentionally Left Blank




                8
Part II – U.S. Military Cemeteries
Introduction
This section contains a series of observations and recommendations for improvement that apply
to the Office of the Secretary of Defense (OSD), all U.S. Military Cemeteries, and to the
respective Services.




                                              9
This Page Intentionally Left Blank




               10
Observation 1. Cemetery Operations and Management
There was a lack of standardization across and within the Services in the areas of U.S. military
cemetery operations and management.

This was caused by a lack of, or insufficient, guidance from OSD and the Services on
management of cemeteries at U.S. military installations.

As a result, there was rarely a single installation office that had sole responsibility for the
cemetery, compounding the possibility of mismanagement.

Applicable Criteria
   •   Department of Defense Directive 5134.01, “Under Secretary of Defense for Acquisition,
       Technology, and Logistics (USD(AT&L)), Dec. 9, 2005 (including Change 1 of April 1,
       2008).
   •   Army Regulation 210-190, Post Cemeteries, February 16, 2005.
   •   Department of the Army Pamphlet 290-5, Administration, Operation, and Maintenance
       of Army Cemeteries, May 1, 1991.
   •   Army Regulation 290-5, Army National Cemeteries, September 1, 1980.
   •   Department of the Army Memorandum, Army Post Cemeteries Way Ahead, September
       11, 2012.
   •   Air Force Instruction 34-242, Mortuary Affairs Program, Change 1, April 30, 2008.
   •   Navy Medical Command Instruction 5360.1, Decedent Affairs Manual, September 17,
       1987.

Background
Standardization of U.S. military cemetery operations and management was non-existent
(Observations 2 and 3). The cause was lack of overarching regulation and guidance concerning
cemetery operations and management. The absence of sufficient guidance has contributed to the
errors identified and the possibility of losing accountability of those interred.

At the onset of this assessment, we identified two immediate problems. One was a lack of
knowledge at the Service level as to which installations had cemeteries within their jurisdictions.
The Services initially reported that there were over 60 installations with military cemeteries. As
the assessment progressed, that number was revised downward by the Services. We eventually
settled on visiting 34 installations, of which 29 had military cemeteries and the other five had
civilian cemeteries on the military base. We added Marine Corps Base Quantico (civilian
cemeteries) to ensure all Services were included in the assessment.

The second problem was a lack of available electronic records to use in order to develop a
statistically valid sample of those interred. We requested from each installation with a military
cemetery a spreadsheet with the following information (as a minimum): Name, Date of Death,
and Date of Burial. This information was decided upon after a review of the pertinent



                                                  11
regulations and our review on-site of the three Service academy inspections by the Service
Inspectors General. 11

Additionally we found issues with the interment data received from the installations. We did not
know what types of information was available for the cemeteries. As a result we requested a
spreadsheet with the minimum data mentioned above. For the most part we received the data as
requested in spreadsheet form; however, some installations only provided names and burial
locations, others provided only locations, and some provided more details in spreadsheet form.
We did receive two PDF copies of interment log books which then had to be converted to
spreadsheet format, and we received at least one database listing. In a few cases we were
provided updated spreadsheets upon our arrival at the installation. All of this contributed to the
challenging tasks of determining who was buried where, how many graves existed, and how
many were interred in those graves. Once those differences were resolved we then were able to
determine the most appropriate and valid sampling techniques to use.

Discussion
From our preliminary discussions with each Service and with the installations, we determined
that there was little standardization in cemetery records management and operations. We did not
know what we would find upon our arrival for both records and cemetery management. At some
installations, new installation cemetery administrators learned from us as we went through the
records and cemetery assessment. Generally, the Army had more centralized operational
guidance and was consistent in cemetery operations. Yet the day-to-day operation was usually
divided among different installation organizations. In general, the grounds maintenance was
under the control of the Installation Public Works department, and the records management fell
under the local casualty assistance office. Navy cemeteries operated under the local Navy
hospital, the responsibility having been assigned by an out of date regulation. In two instances,
the Navy hospital had relinquished control to the installation commander, based on specific
circumstances on those installations. The Air Force had issued limited guidance, relying on the
installation commanders’ discretion.

Cemetery Management
The IG team found a variety of cemetery management arrangements. Cemeteries managed/
operated by committees or with responsibility split between offices were not determined to be as
effective during the assessment. Cemeteries with full-time directors serving as the installation
commander’s single point of contact for cemetery management had fewer issues. Cemeteries
with part-time or additional-duty directors had more problems, as no one individual or
organizational entity was in charge. As a result, oversight was often insufficient.

Training for Cemetery Operations
Typically, none of the cemetery administrators we observed had any type of formal training, nor
was there any training available. Cemetery administrators (General Service or contract) could
benefit from formal training opportunities that provide a full understanding of industry standards

11
   DoD’s inability to provide a universe of interments department wide required the OIG to accordingly revise its
sampling plan to reflect individual installation results aggregated to the DoD as a whole. The results are not
projectable to those cemeteries not assessed.

                                                        12
and best practices. The VA website states that cemetery administrators need to thoroughly
understand: 12

     •   financial management (e.g., budgetary requirements, annual financial plans, submissions,
         expenditures and financial reports);
     •   cemetery field operations (e.g., interments, grounds, equipment and facilities
         maintenance, safety, and headstones/markers/niche covers);
     •   cemetery administrative operations (e.g., property accountability, eligibility for
         interments, committal services and reports preparation);
     •   federal, state, local, NCA and military policies and procedures for cemetery operations,
     •   personnel management (e.g., hiring policies and employee development);
     •   contract oversight (e.g., preparation, administration, inspection and approval);
     •   strategic and daily cemetery planning principles and techniques;
     •   computer applications unique to NCA (e.g., Burial Operational Support System (BOSS)
         and Centralized Administrative Accounting Transaction System (CAATS));
     •   performance management principles and techniques (e.g., performance data analysis and
         process improvement); and
     •   outreach and public affairs principles and techniques.

Inspections
Annual inspections, required by Army regulation, were often found to be incomplete or not
performed at all. Navy and Air Force cemeteries did not have an annual inspection requirement
standard, and proper cemetery management cannot be ensured without implementing an
oversight mechanism to establish that cemeteries are administered and maintained appropriately.

Standard Operating Procedures
Lack of written local SOPs contributed to a lack of clarity regarding operations and procedures.
All the cemetery personnel we interviewed were dedicated, but had widely varying levels of
expertise to perform their duties. In all but two contractor-run cemeteries the administrators
doing the work were part-time (additional duty). Most had no back-up during their absence.
Having a detailed written local SOP (or contract statement of work) could overcome potential
problems related to a lack of experience or continuing operations during the absence of key
personnel. Also, it would provide a valuable tool for continuity when new personnel are
assigned or replace departing staff.

Accountability
While all interments/inurnments within our sample population were accounted for, in some cases
it required extensive investigative work to establish accountability. Examples included: 13



12
  Accessed from the VA website: http://mycareeratva.va.gov/Careerpath/Pages/Job.aspx?job=12_163002.
13
  Some of these errors were outside of our sample. The team reported all errors found to the installation
commander but did not count those outside our sample in the statistical sample.

                                                       13
      •    having to contact the local funeral home to determine where and when a family member
           died and was buried as no headstone or records, other than a name, existed;
      •    at least 10 instances of records showing a second interment, yet no information on the
           headstone existed;
      •    other instances of a first or second interment listed on a headstone, but no paperwork to
           back up the burial; and
      •    instances of interment records existing, yet there was no corresponding headstone at the
           designated burial site.

Statistical Analysis
The 2012 NDAA called for a statistical sample of military cemeteries to carry out this inspection.
Based on conversations with HASC Staff and the Military Departments, we ultimately chose to
assess all military cemeteries and do a statistical sample of the graves within each of the military
cemeteries. The resulting statistical analysis was based on a 95 percent confidence level and a 5
percent error rate. 14 The statistical results are only projectable for those cemeteries observed.
However, the error rates and types can be inferred to apply to all cemeteries.

Table 3 displays the statistical analysis rollup for the Department (DoD) and by Service. The
total population was 34,123 interments with a sample of 6,387. Both observed and projected
errors for Tier I and Tier II errors are also displayed. 15 All interments were accounted for. The
Tier I errors included missing headstones, missing headstone inscriptions, or missing paperwork.

                       Table 3. Statistical Analysis Rollup of DoD and by Service
                                       Cemetery Statistical Analysis
       Service           Population      Sample         Observed Errors           Projection
      Cemetery
                                                                    Tier I   Tier II   Tier I    Tier II
     DoD Rollup             34,123             6,387                 21      2,727      73      12,140 16

 Army Rollup                31,181             5,203                 18      1,844      66       9,670
 Navy Rollup                  682               416                   1        98        1        165
Air Force Rollup             2,260              768                   2       785        6       2,306


Conclusion
A combination of issues, including lack of standardized guidance, ineffective management, and
poor training, contributed to the error rates observed. These were not isolated in their occurrence
and were applicable to all Services. OSD and the Services should address records management,
define what constitutes a record, and then ensure these are developed and maintained at each



14
     See Appendix J for the entire statistical analysis write up.
15
     See pages 10-12 for types of Tier errors and methodology.
16
     Difference due to rounding up.

                                                            14
cemetery. Additional OSD guidance, standardization, management controls, and oversight will
lead to improved cemetery management. 17

Recommendations, Management Comments, and Our
Response
Redirected Recommendation
As a result of management comments, we redirected responsibility for Recommendation 1.a.
from Under Secretary of Defense for Personnel and Readiness (USD (P&R)) to the Under
Secretary of Defense for Acquisition, Technology, and Logistics (USD(AT&L)), who more
appropriately has the authority to implement the recommendation. This also coincides with
responsibilities as defined in DoD Directive 5134.01.

 1.a. Under Secretary of Defense for Acquisition, Technology, and Logistics, in coordination
 with Under Secretary of Defense for Personnel and Readiness, publish and implement cemetery
 management training guidance focusing on industry standards and best practices.

Management Comments Required
The Under Secretary of Defense for Acquisition, Technology, and Logistics did not comment on
a draft of this report. We request that the Under Secretary provide comments on the final report.

1.b. Assistant Secretary of the Navy for Manpower and Reserve Affairs, Assistant Secretary of
the Air Force for Manpower and Reserve Affairs, and Executive Director of the Army National
Cemeteries Program:
     (1) Designate a single POC at each installation with responsibility for overall cemetery
operations.
     (2) Ensure training opportunities are provided for individuals identified with cemetery
operations responsibilities.
        (3) Develop and implement a cemetery inspections program.
        (4) Develop and implement local cemetery management Standard Operating Procedures.
        (5) Direct installation commanders to conduct a 100 percent record-to-graves verification.

Management Comments
Army. The Executive Director for Army National Military Cemeteries concurred with each of
the sub-elements of Recommendation 1.b. and has taken steps to institutionalize at all Army
cemeteries those best practices recently identified at Arlington National Cemetery (ANC). To
each of the sub-elements of the recommendation, the Executive Director noted that:
    • All Army commands responsible for an Army post cemetery have identified a single
       point of contact responsible for the Army post cemetery.

17
     See both Observations 2 and 3.

                                                  15
   •   The Army has recently begun conducting formal in-person and virtual training courses at
       Arlington National Cemetery for all Army cemetery managers.
   •   Arlington National Cemetery has made strides in developing an organizational inspection
       program for cemetery operations that will serve as an internal assessment tool for ANC,
       as well as the benchmark of standards by which the Army will conduct its external
       inspections of Army cemeteries once the Army cemetery personnel are trained.
   •   The Executive Director has provided three sets of documents to the Army cemeteries to
       assist in their preparation of SOPs to include:
           o Standards and Measures for all Army cemeteries
           o Updating of the Army’s governing regulation and business practices for all Army
                cemeteries
           o The ANC “Smart Book,” which provides other Army cemeteries additional best
                practices for inclusion in their installation cemetery operations and maintenance
                SOPs.
   •   The Executive Director reports they are working closely with all commands responsible
       for Army post cemeteries to develop robust accounting processes at their cemeteries to
       “ensure accuracy and consistency among its (1) records, (2) the permanent marker, and
       (3) a geospatially-mapped grave location” for all those interred in Army cemeteries.

Navy. The Deputy Assistant Secretary of the Navy for Military Manpower and Personnel
(DASN (MM&P)) concurred with each of the five sub-elements contained in Recommendation
1.b. The Deputy Assistant Secretary stated that Navy will designate POCs for responsibility for
cemetery operations at each of the Navy military cemeteries. The Deputy Assistant Secretary
provided a caveat to Recommendations 1.b.(2), 1.b.(3), 1.b.(4), and 1.b.(5) by stating that these
recommendations regarding development of cemetery operations training opportunities,
cemetery inspections programs, SOPs, and the record-to-graves verification were all dependent
on development and publication of guidance by OSD.

Air Force. The Assistant Secretary of the Air Force (Manpower and Reserve Affairs)
concurred with recommendation 1.b. and its sub-elements with comment.
    • 1.b.(1) – The Air Force has designated a POC at each installation with a cemetery on the
        property, whether the cemetery is military or civilian.
    • 1.b.(2) – The Air Force concurred that the POCs for each cemetery should have
        appropriate grounds maintenance training, but expressed that there is a limitation to the
        training required.
    • 1.b.(3) – The Air Force concurred with the recommendation but stated that since most
        cemeteries on Air Force property are private or historic, inspections would only involve
        those aspects for which the Air Force has responsibility.
    • 1.b.(4) – The Air Force concurred with the need to develop SOPs and stated they will
        take steps to do so for each location.
    • 1.b.(5) – The Air Force concurred with the recommendation but stated that they could
        pursue a 100 percent record-to-graves verification only at the U.S. Air Force Academy,
        F.E. Warren AFB, Fairchild AFB, and Offutt AFB, as these are the USAF cemeteries
        active or honoring existing reservations.
                                                16
Our Response
Army. The comments of the Executive Director for Army National Military Cemeteries were
responsive and met the intent of each of the sub-elements of Recommendation 1.b. The Army,
as the Service with most active military cemeteries, has devoted much attention to development
of internal mechanisms to ensure that cemetery operations and management on Army posts are
or will be conducted in a professional manner, utilizing modern standards and measures. No
further comment is required.

Navy. The comments of the Deputy Assistant Secretary of the Navy for Military Manpower
and Personnel with respect to Recommendation 1.b.(1) were responsive. The intention of the
Navy, however, to wait until the Department of Defense develops and implements formal policy
guidance for cemetery administration, management, and oversight before developing their own
does not meet the intent of these recommendations. The Navy should take action now to develop
a training plan for cemetery operators, as needed; develop and institute a cemetery inspections
program; develop and implement cemetery SOPs; and proceed with plans to conduct a 100
percent record-to-graves verification. We request that the Navy provide further comment
regarding its plans to implement Recommendations 1.b.(2), 1.b.(3), 1.b.(4), and 1.b.(5) in
response to this report.

Air Force. The comments of the Assistant Secretary of the Air Force (Manpower and Reserve
Affairs) with respect to Recommendation 1.b.(1) was responsive and requires no further
response.

While concurring with Recommendation 1.b.(2), the Assistant Secretary states “the POC’s
should for each cemetery should have the appropriate training to maintain their responsibilities,
mainly grounds maintenance.” We agree with grounds maintenance training but there is more to
cemetery operations than just grounds maintenance. Training should encompass burial
operations as well. We request that the Air Force provide us with its training plans for their
cemetery POC’s.

While concurring with Recommendation 1.b.(3), the Assistant Secretary states that an
inspections program “would only involve” certain military cemeteries and “would need to
account for differences in use, accessibility, and financial involvement.” We do not dispute the
criteria to be considered in development of the inspections program; however, the comments did
not describe actions to implement such an inspections program. For Recommendation 1.b.(3),
we request that the Air Force provide us with its plans and timeline for implementation of a
proposed inspections program for military cemeteries located within Air Force bases.

While concurring with Recommendation 1.b.(4), the Assistant Secretary indicated that they will
take steps to develop SOPs for each of their military cemeteries. We request they provide us a
timeline or plan for development of these SOPs in response to the final report.

With respect to Recommendation 1.b.(5), the Assistant Secretary stated that the Air Force
“could” pursue a 100 percent record-to-graves verification at the U.S. Air Force Academy, F.E.
Warren AFB, Fairchild AFB, and Offutt AFB. We request that the Air Force provide us their

                                               17
plan for accomplishment of these verification activities, for these specific installations as they are
the only ones with military cemeteries, in response to this report.




                                                 18
Observation 2. Policy and Guidance for Cemetery
Operations Varies Between Services and Sites
There is no policy or directive guidance from the Department of Defense addressing Service
component roles and responsibilities for cemetery operations and administration.

This lack of guidance directly contributed to the Service components creating their own
publications on cemeteries, as well as creating separate and varying standards. 18

This resulted in identified problems concerning the following areas:
      • official form to record interments,
      •    reservations,
      •    disinterment,
      •    map layout of gravesite,
      •    scheduled inspections, and
      •    maintenance standard.

Applicable Criteria
      •    Army Regulation 210-190, Post Cemeteries, February 16, 2005.
      •    Department of the Army Pamphlet 290-5, Administration, Operation, and Maintenance
           of Army Cemeteries, May 1, 1991.
      •    Army Regulation 290-5, Army National Cemeteries, September 1, 1980.
      •    Secretary of the Army’s Memorandum, Enhancing the Administration, Operation and
           Maintenance of Military Cemeteries Under the Jurisdiction of the United States Army,
           April 17, 2012.
      •    Department of the Army Memorandum, Army Post Cemeteries Way Ahead, September
           11, 2012.
      •    Air Force Instruction 34-242, Mortuary Affairs Program, Change 1, April 30, 2008.
      •    Navy Medical Command Instruction 5360.1, Decedent Affairs Manual, September 17,
           1987.

Discussion
Variations Among Service Components – Cemetery Operations and
Administration
Without guidance from the Department of Defense and since Service components operate
differently, the Service components established different standards for cemetery operations and
administration. Examples of the differences in guidance and execution are below.




18
     See Observations 1, 3, and 5 for further discussion of this point.

                                                            19
                                                     Table 4. Observation 2 Matrix
        RECORDS                      RESERVATIONS                   DISINTERMENTS              MAPS                     INSPECTIONS           MAINTENANCE

OSD     No Guidance                  No Guidance                   No Guidance                 No Guidance              No Guidance           No Guidance
        DA Form 2122 is the          Guidance allows one gravesite The family member or        Garrison Commander       Inspections must be   Some maintenance
        official record of           per family and no longer      close relative must         is responsible to have   conducted. No         criteria given, rest up to
        interment/inurnment.         allows reservations. The      present a notarized         a map layout of the      guidance on how or    commander.
        Explains use of the form.    Army will honor all           affidavit by all close      gravesite. No specific   what needs to be
ARMY
                                     reservations prior to 1 May   relatives of the decedent   type of gravesite        inspected.
                                     1975. Verify reservations     with no objections before   layout map provided.
                                     every 5 years                 the command will review
                                                                   the request.



NAVY    No Guidance                  No Guidance                    No Guidance                No Guidance              No Guidance           No Guidance



        The AF Form 593 is           Verify reservations every 2
        “Interment Record-Base       years. The publication does
        Cemetery.” Not specific      not reserve gravesites or
        as the official record for   assign gravesites in advance
        an interment or to be used   of interments except for
                                                                                                                                              Cemeteries are classified
        for each interment.          adjoining sites. The spouse
AIR                                                                                                                                           as improved grounds.
                                     must request their interment   No Guidance                No Guidance              No Guidance
FORCE
                                     reservations at the time
                                     interment arrangements are
                                     being made for the service
                                     member.




Official Record System for Interments 19
Army
The Army’s publications list the DA Form 2122 as the official record of interment/inurnment, as
well as explanation as to how to use the form.

Most installations are using the DA 2122 form, but had multiple recording errors and were not in
accordance with the publication. Some installations were missing interment records altogether
and had to recreate the document to maintain accountability of interments. 20

Air Force
Air Force publication AFI 34-242 lists the AF Form 593 as “Interment Record-Base Cemetery.”
It states, “A complete record of interments will be maintained in base cemeteries. At the end of
each month, AF Form 593, Interment Record-Base Cemetery will be prepared in duplicate. The
original will be sent to the Major Command (MAJCOM) concerned and the duplicate will be
retained at the installation.” 21 No other instruction is provided for the form.

In three of the installations, the main data entries of deceased were hand written in ledgers and
not in the AF Form 593. Some Air Force installations had a combination of both ledger and AF

19
   DoD IG requested each installation develop an Excel spreadsheet listing all interments. This single document was
the beginning point for our accountability assessment and was the basis for the statistical analysis used.
20
   Headstone data (reportedly) was primarily used to recreate the documents.
21
   Air Force Instruction 34-242. Para A4.9. Page 151.

                                                                              20
Form 593s and one had nothing. There were multiple errors in the forms and, in most cases, data
fields were missing. Cemetery staff failed to comply with published procedures.

Navy
The Navy has one publication on mortuary affairs, with no guidance on cemetery operations and
administration. The Navy does not have an official form to record an interment in an installation
cemetery.

All Navy installations with cemeteries used hand written ledgers to record burials as the primary
record of interment. These were originally maintained by the base hospital, as the hospital was
also charged with cemetery operations. The lack of guidance and an official interment form
created variations of information on the deceased. Because the information in ledgers was hand
written, the written scripts were difficult to read and there were multiple information errors on
the deceased.

Reservations
Army
The Army’s current guidance allows one gravesite per family in a post cemetery. Prior to 1 May
1975, both the service member and the spouse were allowed to have separate burial plots. This
is no longer the case, but the Army will continue to honor all reservations prior to 1 May 1975.
It is the installations’ responsibility to maintain contact every 5 years with the surviving spouse
or until the request is cancelled.

One of the three Army instructions provided guidance to communicate every 5 years with the
family member, but seems to refer to the Arlington National Cemetery and not the other
cemeteries. The other two publications did not provide any guidance on verification of
reservation status.

Some installations had a reservation file and maintained contact with the surviving spouse, but
not all did as the guidance required.

Air Force
The Air Force provides guidance for installations to verify reservations every 2 years. The Air
Force publication does not provide for the reservation of gravesites or assign gravesites in
advance of interments, except for adjoining sites. When the service member dies first, an
adjoining grave may be reserved for the eventual interment of the surviving spouse. The spouse
must request their interment reservations at the time interment arrangements are being made for
the service member. Once this is done, it is the installations’ responsibility to verify the
reservation every 2 years.

Not all Air Force cemeteries were adhering to the Air Force instruction by verifying the
reservations every 2 years. This was particularly important with respect to records
accountability.



                                                21
Navy
The Navy did not provide guidance on reservations for interment in installation cemeteries.

None of the Navy cemeteries had requirements for reservations in an installation cemetery. The
Navy did have gravesites available (meaning there is room in the cemetery) for interments, if
requested. Only Guantanamo Bay is currently interring. The other cemeteries were closed or the
installation commander was planning to close them.

Disinterment22
Army
The Army provides guidance on disinterment of a decedent. In order for a disinterment to occur,
the family member or close relative must present a notarized affidavit signed by all close
relatives 23 of the decedent agreeing to the disinterment before the command will review the
request. A request must have a statement of reasons for the proposal. The Army will accept a
court order in lieu of a statement or notarized affidavit. All three Army publications 24 address
disinterment and are similar in procedures but only one provides the administration procedures
relevant to disinterment.

To complete the disinterment, administratively, the guidance stipulates that the record must be
removed from the files of the interred and then destroyed. This will allow all other cemetery
records to reflect the gravesite as being available. The guidance to adjust the administration
portion of the disinterment is under the “Records and Reports” chapter and not under
disinterment, making it difficult to find.

Some installations still had the names of those disinterred in their records, which caused some
accountability issues, as their overall numbers did not add up correctly.

Air Force and Navy
The Air Force and Navy did not have guidance on disinterment of decedents from an installation
cemetery.

Both the Air Force and Navy cemeteries had disinterred deceased personnel, but the records
were not changed. The decedents were still in the register as interred. In order to solve the
accountability issue the team had to cross reference other documents.

One Air Force installation, in the absence of guidance, created a disinterment file to account for
deceased personnel and to reflect that the gravesite was available.




22
   The request and disinterment of a buried individual most often is used to move the deceased to another cemetery
closer to living relatives.
23
   AR 210-190. Para 2-14. Page 6.
24
   AR 210-190, AR 290-5, and DA PAM 290-5.

                                                        22
Map Layout of                               Figure 1. Types of Map Plats
Gravesite
Army
Not all Army
cemeteries had or
maintained a map
layout of the
gravesites. This
made the validation
of personnel            Source: DoD OIG-SPO
interred, verification
of headstone data, and accountability difficult and time consuming. Some of the maps reviewed
were either outdated, too fragile to use at the cemetery site, or nonexistent.

One publication 25 provided a list of responsibilities for the garrison commander with reference to
post cemeteries and burial; providing a gravesite map layout is one of those responsibilities.
Maps provide a valuable source in validating interment information and location. However, the
Army publication does not specify the type of gravesite layout map required or provide other
information. It only states that a map is required.

Air Force and Navy
The Air Force and Navy did not have any guidance or requirement for a map layout of
gravesites.

Although neither Service components had requirements to maintain a gravesite layout map, most
Air Force and Navy installation cemeteries possessed some form of diagram or map. This
enabled the installation to establish the presence and location of interred personnel for
accountability purposes.

Scheduled Inspections
Army
Two Army publications 26 provided guidance on inspections. AR 290-5 specifically addressed
both the Arlington National Cemetery and Soldiers’ Home, while AR 210-190 addressed post
cemeteries. The latter states that it is the installation garrison commander’s responsibility to
inspect annually. Other than stating an inspection is required, the Army did not provide any
guidance on how or what needed to be inspected. The current inspection criterion for Arlington
National Cemetery provides the scope of technical, operating, and administrative inspections.
The Army may want to incorporate similar inspection criteria for the post cemeteries as is


25
     AR 210-190, para 1-10, a(9).
26
     AR 290-5 and AR 210-190.

                                                23
required for Arlington and the Soldiers’ and Airmen’s Home National Cemeteries stated in AR
290-5.

Not all Army cemeteries conducted the required annual inspection. There appeared to be a
correlation between those sites for which inspections were conducted and those with fewer
administrative record errors, better maintenance, and appearance of inspected cemeteries.

Air Force and Navy
The Air Force and Navy did not have any guidance or requirements for inspections.

Although neither Service component had requirements to inspect installation cemeteries, some
Air Force and Navy installations did conduct inspections. Those installations that inspected
cemeteries appeared to have fewer administrative errors with better maintenance and appearance
versus those cemeteries not inspected.

Maintenance Standard
                                                        Figure 2. Tire Ruts in Cemetery
Army
Not all Army cemeteries were maintained to the
standard stated in the publications. Some
cemeteries were maintained at a higher standard,
while others were not to standard. We found
more substandard cemeteries among those that
were not inspected than of those that were.

Two Army publications 27 provide guidance on
maintenance of cemeteries. DA PAM 290-5
addressed the Arlington National Cemetery and
Soldiers’ Home, in addition to post cemeteries,
and AR 210-190 addresses post cemeteries on
Army installations.                                Source: DoD OIG-SPO

The publication addressing post cemeteries provides the installation commander maintenance
criteria. Yet it allows some commanders discretion. “Lawn,” for example, will be mowed neat
in appearance and free of weeds and brush. Another example is “fertilization and irrigation
when necessary;” and a third example is “Headstones, monuments, and other markers will be
aligned and kept free of dirt or discoloration.”

Air Force
The Air Force did provide guidance on maintenance and specified that cemeteries are classified
as improved grounds according to the standards for maintenance of grounds and drainage, as
adopted by DoD. It also states the cemetery:



27
     AR 210-190 and DA PAM 290-5.

                                              24
          “lands in this classification are maintained at a degree necessary to present a desirable appearance. This
          includes, but is not limited to, periodic mowing, fertilization, weed control, insect and rodent control, plant
          disease control, pruning, maintenance of storm drainage systems to prevent water damaging, soil erosion,
          and recurrent flooding. All maintenance of cemeteries is confined to existing facilities and will be
                                                     28
          accomplished according to standard(s)...”

The Air Force publication does not mention anything concerning cemetery operations, but all Air
Force cemeteries were maintained in accordance with the prescribed guidance.

Navy
The level of maintenance of Navy cemeteries                     Figure 3. Cemetery with No Maintenance
varied from installation to installation. The                                   Issues
Navy publication does not mention anything
about cemetery operations and maintenance.

Conclusion
The lack of guidance from the Department of
Defense regarding cemetery operations and
administration and the Services’ failure to
follow their own guidelines has contributed to
variations in cemetery standards. The variation
in cemetery operations was systemic; each
Service had implemented their view of the
interment process and was doing what it
believed to be correct, but without cross-Service Source: DoD OIG-SPO
standardization. During our discussions with personnel from the Under Secretary of Defense for
Personnel and Readiness, they discussed their plans to develop department-wide guidance on
cemetery operations.

Recommendations, Management Comments, and Our
Response
Redirected and Revised Recommendations
As a result of management comments we redirected responsibility for Recommendation 2.a.
from Under Secretary of Defense for Personnel and Readiness (USD(P&R)) to the Under
Secretary of Defense for Acquisition, Technology, and Logistics (USD(AT&L)), who more
appropriately has the authority to implement the recommendation. This also coincides with
responsibilities defined in DoD Directive 5134.01. We also changed the wording in
Recommendation 2.c. to indicate that the forthcoming policy guidance should come from
USD(AT&L) rather than from USD(P&R).




28
     Page 151. Para A4.10 of AFI 34-242

                                                           25
 2.a. Under Secretary of Defense for Acquisition, Technology, and Logistics, in coordination
 with Under Secretary of Defense for Personnel and Readiness, provide guidance for military
 cemetery operations and administration. The guidance should take into consideration Service
 components’ lessons learned on installation cemetery operations and administration.

Management Comments Required
The Under Secretary of Defense for Acquisition, Technology, and Logistics did not comment on
a draft of this report. We request that the Under Secretary provide comments on the final report.

2.b. Executive Director of the Army National Cemeteries Program, complete the update of the
“Army Post Cemeteries Way Ahead” in the Department of the Army’s memorandum, dated
September 11, 2012, addressing each area assessed in observation 1, including: 1) consolidation
of all manuals into one comprehensive regulation or pamphlet, and, 2) an outline of practical
guidance for Army leaders in the management, operations, maintenance, and support of Army
Post Cemeteries.

Management Comments
The Executive Director for Army National Military Cemeteries concurred with recommendation
2.b.
(1) AR 210-190 “Post Cemeteries” and AR 290-5 “Army National Cemeteries” are being
consolidated into AR 290-5 “Army Cemeteries.” DA Pam 290-5 “Administration, Operation,
and Maintenance of Army Cemeteries” will be updated once AR 290-5 is complete.
(2) An “ANC Smart Book” from the Office of the Executive Director was shared with leaders
responsible for Army Cemeteries.

Our Response
The comments of the Executive Director for Army National Military Cemeteries are responsive
and meet the intent of Recommendation 2.b. We request a copy of the new AR 290-5 when
published.

2.c. Assistant Secretary of the Navy for Manpower and Reserve Affairs and Assistant Secretary
of the Air Force for Manpower and Reserve Affairs, update the applicable manuals of each
service to reflect upcoming Under Secretary of Defense for Acquisition, Logistics, and
Technology policy.

Management Comments
Navy. The Deputy Assistant Secretary of the Navy for Military Manpower and Personnel
(DASN(MM&P)) concurred with comment to Recommendation 2.c., stating that applicable
Navy manuals will be updated to reflect forthcoming OSD policy.

Air Force. The Assistant Secretary of the Air Force (Manpower and Reserve Affairs)
concurred with comment to Recommendation 2.c. The Air Force will review upcoming DoD
policy when published and will update Air Force policy as required.

                                               26
Our Response
Navy. The comments of the Deputy Assistant Secretary of the Navy for Military Manpower
and Personnel with respect to Recommendation 2.c. are partially responsive. The intention of
the Navy to wait until the Department of Defense develops and implements formal policy does
not meet the intent of this recommendation. Any delay on the part of higher authority to issue
DoD-wide policy on cemeteries should not preclude the Navy from taking action now to update
its current regulation(s). We request that the Navy provide further comment regarding updating
its applicable manuals and guidance on cemetery operations, in response to this report.

Air Force. The comments of the Air Force with respect to Recommendation 2.c. are partially
responsive. The intention of the Air Force to wait until the Department of Defense develops and
implements formal policy does not meet the intent of this recommendation. Any delay on the
part of higher authority to issue DoD-wide policy on cemeteries should not preclude the Air
Force from taking action now to update its current regulation(s). We request that the Air Force
provide further comment regarding updating its applicable manuals and guidance on cemetery
operations, in response to this report.




                                              27
This Page Intentionally Left Blank




               28
Observation 3. Recordkeeping Standards and Guidelines for
Military Cemeteries Vary Between Installations and Services
Cemetery recordkeeping was inconsistent across and within military Services.

This occurred because of a lack of clearly defined or inadequate standards and a failure to
conduct oversight. 29

Lack of adequate standards and oversight resulted in a lack of clarity in records of accountability
with respect to burials at military cemeteries.

Applicable Criteria
      •    Army Regulation 210-190. Subpart 2-4, General; Subpart 2-6, Gravesite Assignment
           Criteria, February 16, 2005.
      •    Department of the Army Pamphlet 290-5. Subpart 4-14, Assignment of Gravesites;
           Subpart 4-17, Delivery Receipt, May 1, 1991.
      •    Air Force Instruction 34-242. Subpart A4.7, Reserving Gravesites; Subpart A4.9,
           Records and Reports, April 2, 2008.

Background
Each cemetery had its own way of maintaining and tracking interment records, in the absence of
set standards provided by DoD and the Services. A main discussion point with installation
cemetery staff was ‘what constitutes a record and what records should cemeteries maintain?’
Without a clear understanding of data required, cemetery recordkeeping and reporting will be
inconsistent and no minimum standard will be met that provides a clear and complete data set of
military cemetery burials.

Cemetery Record Definitions Varied by Services30
The Army cemeteries had missing records, incomplete data, and inaccurate information on the
cemetery interment records. The standard in AR 210-190, requires a DA Form 2122 record for
all personnel buried in an Army cemetery. 31 Even with this requirement, some cemeteries used
other forms to record data. Some installations used the DA Form 2122 properly, while others
used it improperly or not at all. The record keeping varied greatly between the cemeteries. In
addition, a number of records had inaccuracies.

The Air Force cemeteries visited had missing records, incomplete data, and inaccurate
information. The AF Form 593 was never identified as the official record as was the Army’s DA
Form 2122. 32 Air Force cemetery staff stated and demonstrated that they did not understand
recordkeeping requirements.


29
     See Observation 2 for the cause of this observation.
30
     See Observation 2 (page 22-23) for more analysis.
31
     Army Regulation 210-190, page 4.
32
     Air Force Instruction 34-242, page 151.

                                                            29
The Navy maintained no standard or policy for recordkeeping regarding interments. Neither did
it have an official, standardized form for recording data on interments/inurnments. Cemetery
staff did maintain ledgers with a list identifying names of buried personnel.

Service cemeteries that maintained records did not always have complete and accurate data.
Generally a complete record, based on reviews of official Army and Air Force forms along with
the burial registers from all Services observed, required:

     •   name,
     •   date of birth,
     •   date of death,
     •   date of interment,
     •   Service, and
     •   burial location. 33

At times, data was understandably incomplete, such as the date of interment, which could not
always be found (e.g. the date of death was in 1920 and no records were maintained).

There was no requirement for any of the cemeteries to maintain a consolidated interment
spreadsheet, yet all had some form of one. Some of the cemeteries we visited prepared their
spreadsheets to accommodate this assessment. The spreadsheet was a useful tool, as long as the
cemetery interment data was accurate.

Map Plats
Accurate maps are crucial for maintaining correct historical records, as well as for finding the
location of a headstone when visitors come to the cemetery. Locating specific graves proved to
be a challenge at many of the cemeteries. With cemetery grounds being expanded and rows
added during various eras, the grave locators engraved on the back of headstones (if present) did
not always follow a logical sequential order, if they were even present (as there was/is no
requirement to have a location listed on the headstone). As a result, the team would look to
cemetery maps/plats; however, if a map did not exist or was inaccurate, the team had to walk the
graves one by one in search of a headstone.

The mapping variability between cemeteries was broad. Some cemeteries had Geographic
Information System (GIS) capabilities. Others had outdated maps and some cemeteries had no
map records at all. Some military cemeteries have upgraded to a GIS, which is an automated
tool for locating a deceased’s grave site. Examples were observed online where a visitor could
view a picture of the headstone they wished to visit, as well as its location. Other cemeteries had
plans to install a computer booth at the cemetery which would print out a map that identified the
location of the desired individual grave. Such systems enabled interment accountability and
helped visitors locate a particular grave site.



33
   The DA Form 2122 and 2123, AF Form 593, and the burial registers (old Army registers are the QM 16s), all
require this basic information.

                                                      30
Temporary Markers and Headstones
The Army and Air Force provided guidance on temporary markers, the Navy did not. For those
that used temporary markers, practices varied
among the installations (e.g. some sites had     Figure 4. Temporary Grave Marker Used
metal signs on the ground or stakes with general    by Forts Benning and Leonard Wood
information written on paper). Inconsistent
records led to discrepancies between the DA
Form 2122 and the headstone, as well as with
temporary markers that had been left in the
cemeteries for multiple years without being
replaced by a headstone. DA Pam 290-5 (4-
17), states “The Superintendent reviews the
suspense file each month. Follow-up action in
writing will be taken if the headstone has not
been received within 120 days after interment.”
Oversight is required to ensure compliance with
the requirement to replace temporary markers
with permanent headstones. 34                    Source: DoD OIG-SPO

We found many errors between the records and the headstone data. In these cases, the team
performed investigative research through examination of the record of interment, logbooks,
hospital records, or newspaper articles to ascertain the correct data. The more expansive
recordkeeping systems allowed for greater knowledge about the deceased and the assurance that
the historical records were accurate and complete. The DA Form 2123 and logbooks were
fundamental to complete Army recordkeeping and for obtaining information about
interments/inurnments.

Reservations
Reservations were another area of recordkeeping that varied among the installations. A
reservation grave site in a specific cemetery is held for a deceased military member, or any
qualifying relative or dependent. 35 Prior to 1975, a Service member could reserve an additional
plot for a spouse, relative, or dependent as the deceased were allowed to have individual plots.

New plots cannot be reserved at an Army cemetery post-1975, which means any open plots were
awarded on an as needed basis. In addition to the plot allocated each Service member, they may
have a second, third, or even fourth interment for spouses and dependents at the one grave site.

The reservation system has limitations due to cemeteries becoming full or because of personal
choices. For example, if a Service member’s spouse dies and is buried in a military cemetery,
the Service member might remarry and want to be buried in a different military cemetery. This
scenario results in two reservations for one Service member, which is a violation of the


34
   Headstones are ordered through the Department of Veterans Affairs using the VA Form 40-1330, which pulls the
information to be engraved on the headstone from the DA Form 2122 or Service equivalent.
35
   AR 210-190, para 2-6.

                                                      31
guidelines. These situations are hard to monitor due to the lack of an automated system that can
communicate between the installations and across Services.

As a best practice, the Army National Cemetery Program (ANCP) advises that it maintains the
record of a reservation until the individual reaches the age of 150 years old. Adoption of this
best practice at all military cemeteries would eliminate the possibility of giving a reservation
away before the individual has died. The reservation guidance from ANCP further explains that
communication with the member holding a reservation should occur every 5 years to confirm
that the reservation is still desired. 36 The Air Force, moreover, advises that communication with
the member holding a reservation should occur every 2 years. 37 If the reserving member decides
they no longer want the plot, then the cemetery can provide that grave site to another individual.

Conclusion
Recordkeeping at the military cemeteries we visited was inadequate as a result of a lack of clear,
consistent, and complete guidance, and poor oversight. None of the cemeteries we visited were
free from errors, and we found only few consistencies in recordkeeping standards. Some
cemeteries had records management systems, while others had no system in place. Minimum
records should include a spreadsheet for each cemetery that lists each interment/inurnment and
an individual record for that burial. Both records should have, at a minimum, the following:

      •   name (first, middle, last),
      •   date of birth,
      •   date of death,
      •   date of interment,
      •   branch of service,
      •   relation to the sponsor, and
      •   burial location.

Additionally, if the Services have a specific form relating to an interment or inurnment it must be
completed in accordance with their respective regulation. Cemetery interment maps/plats (to
include GIS) should be a requirement and standardized for better grave site identification and
record keeping.

Recommendations, Management Comments, and Our
Response
Redirected and Added Recommendation
As a result of management comments, we removed draft Recommendation 3.a.(3) and instead
added it as Recommendation 3.c., redirecting it from Under Secretary of Defense for Personnel
and Readiness to the Under Secretary of Defense for Acquisition, Technology, and Logistics.
We revised the numbering of Recommendations 3.a.(4) and 3.a.(5), to 3.a.(3) and 3.a.(4),
respectively, to accommodate this change.

36
     AR 290-5, para 4-14.
37
     AFI 34-242, page 150.

                                                32
 3.a. Under Secretary of Defense for Personnel and Readiness:
       (1) Define what constitutes an interment/inurnment record.
      (2) Develop and require maintenance of a standard spreadsheet of a complete record of
 interments.
       (3) Develop a standard for temporary grave marking.
       (4) Define and revamp the burial reservation system.

Management Comments Required
The Acting Deputy Assistant Secretary of Defense (Military Community and Family Policy)
(DASD(MC&FP)), responding for the Undersecretary of Defense for Personnel and Readiness,
concurred with Recommendation 3.a., but did not state what actions they would take to ensure
each of the sub-elements of the recommendation were addressed.

Our Response
Comments of the Acting Deputy Assistant Secretary of Defense (Military Community and
Family Policy) were partially responsive. Because of recent congressional concerns about
management and oversight of U.S. military cemeteries, progress in developing and implementing
the policy remains a priority issue for the OIG. In response to the final report, we request that
the Under Secretary of Defense for Personnel and Readiness comment on actions planned or
taken to address Recommendations 3.a.(1), 3.a.(2), 3.a.(3), and 3.a.(4).

Unsolicited Management Comments
Although not required to comment, the Executive Director for Army National Military
Cemeteries noted that they were in the process of codifying the externally-validated practices
implemented at Arlington National Cemetery, which could serve as a useful foundation for other
military cemeteries under the purview of DoD. For the full text of the Executive Director’s
comments, see the Management Comments appendix of this report.

The Executive Director made several suggestions concerning these recommendations, to include:
   •    3.a.(1) Interment records must be appropriately defined, and proper definition is critical
        for creating an accurate database for cemetery records. This is particularly challenging
        given the age of some of the records.
   •    3.a.(2) Instead of using a standard spreadsheet, it was suggested that the Interment
        Scheduler System in use at ANC could be modernized and leveraged to support burial
        operations across all Army and/or military cemeteries.
   •    3.a.(4) DA Pam 290-5 identifies the Army’s standard temporary grave marker as the
        standard and will continue to be the Army standard.
   •    3.a.(5) Reservations are no longer legal at Army cemeteries. Army cemeteries will
        identify and validate their reservations that are legally supportable. All others will be
        cancelled and the plots made available for burials.


                                                33
 3.b. Executive Director of the Army National Cemeteries Program, Assistant Secretary of the
 Navy for Manpower and Reserve Affairs, and Assistant Secretary of the Air Force for
 Manpower and Reserve Affairs, update current publications to reflect Under Secretary of
 Defense for Personnel and Readiness and Under Secretary of Defense for Acquisition, Logistics,
 and Technology guidance.

Management Comments
Army. The Executive Director for Army National Military Cemeteries (ANMC) concurred
with Recommendation 3.b., stating that ANMC would update its regulation and pamphlet in line
with new guidance from OSD.

Navy. The Deputy Assistant Secretary of the Navy (Military Manpower and Personnel)
(DASN(MM&P)) concurred with Recommendation 3.b., stating that they will update the
applicable Navy publications to reflect forthcoming DoD policy and will support working groups
tasked with developing the guidance.

Air Force. The Assistant Secretary of the Air Force (Manpower and Reserve Affairs)
(ASAF(M&RA)) concurred with Recommendation 3.b. They will review upcoming DoD policy
when published and revise their policy accordingly.

Our Response
Army. The comments from the Executive Director for Army National Military Cemeteries
were responsive. We agree with further development of ISS for all cemeteries and suggest that a
version of their CR Tools (currently in use at Arlington and the Soldiers’ and Airmen’s Home
National Cemeteries) be refined and used for all cemeteries. No further comment is required.

Navy. The comments of the Deputy Assistant Secretary of the Navy for Military Manpower
and Personnel with respect to Recommendation 3.b. are partially responsive. The intention of
the Navy to wait until the Department of Defense develops and implements formal policy does
not meet the intent of this recommendation. Any delay on the part of higher authority to issue
DoD-wide policy on cemeteries should not preclude the Navy from taking action now to update
its current regulation(s). We request that the Navy provide further comment regarding updating
its applicable manuals and guidance on cemetery operations, in response to this report.

Air Force. The comments of the Air Force with respect to Recommendation 3.b. are partially
responsive. The intention of the Air Force to wait until the Department of Defense develops and
implements formal policy does not meet the intent of this recommendation. Any delay on the
part of higher authority to issue DoD-wide policy on cemeteries should not preclude the Air
Force from taking action now to update its current regulation(s). We request that the Air Force
provide further comment regarding updating its applicable manuals and guidance on cemetery
operations, in response to this report.




                                              34
3.c. Under Secretary of Defense for Acquisition, Technology, and Logistics standardize accurate
maps for all military cemeteries.

Management Comments Required
The Under Secretary of Defense for Acquisition, Technology, and Logistics did not comment on
a draft of this report. We request that the Under Secretary provide comments on the final report.

Unsolicited Management Comments
Although not required to comment, the Executive Director for Army National Military
Cemeteries suggested with respect to 3.a.(3) (now 3.c.) that instead of creating standardized
maps, the Army Enterprise Geographic Information System (GIS), “Army Mapper,” should be
used across the Army and/or DoD for storage, maintenance, and visualization of interment and
gravesite plot data. With data resident in an enterprise system, such as Army Mapper, a
cemetery map can be generated as needed or viewed in real time through a web-based system.
For the full text of the Executive Director’s comments, see the Management Comments appendix
to this report. We agree with the response but will leave it to OSD to establish the standard.




                                               35
This Page Intentionally Left Blank




               36
Observation 4. Issues with Contracting for Cemetery
Services
There were isolated problems identified with contracting and payment for cemetery services at
different sites and with each of the services.

These isolated problems stemmed from a lack of command oversight and/or lack of knowledge
and usually involved:

      •   unclear memorandum’s of agreement,
      •   use of an IMPAC 38 card, as opposed to a contract, for burial services,
      •   possible acceptance of gratuitous services,
      •   determination of burial eligibility by a contractor, and
      •   maintenance lapses including damaged headstones and overall cemetery site appearance.

This resulted in isolated maintenance lapses and the possibility of lawsuits.

Applicable Criteria
      •   Department of Defense Government Charge Card Guidebook For Establishing And
          Managing Purchase, Travel, And Fuel Card Programs, 21 December 2011, Chapter 2,
          Common Business Rules for All Card Programs: Purchase, Travel, and Fuel; Appendix
          A, Unique Business Rules for Purchase Card Programs.
      •   Air Force Instruction (AFI) 64-117, Air Force Government-Wide Purchase Card (GPC)
          Program, September 20, 2011.
      •   Federal Acquisition Regulation (FAR) Subpart 46.4, Government Contract Quality
          Assurance; Subpart 46.5, Acceptance.
      •   Army Federal Acquisition Regulation (AFARs) Subpart 207.5, Inherently Governmental
          Functions, January 10, 2008; Subpart 246.4, Government Contract Quality Assurance,
          October 1, 2010.
      •   Air Force Federal Acquisition Regulation (AFFARs) Management Control Evaluation
          Checklist, February 26, 2009; Part 5346, Quality Assurance, April 21, 2011.
      •   Air Force Mandatory Procedure (MP) 5346.103, Contracting Office Responsibilities The
          Quality Assurance Program, April 21, 2011.
      •   Navy Marine Corps Acquisition Regulation Supplement, April 2008 Change 08-14
          (revised 27 September 2012), Part 5246 Quality Assurance.

Background
Cemetery contract-related services were found in two categories: burial-related services (plot
preparation, interments, disinterments, and plot restoration) and grounds maintenance (lawn care,
trash removal, headstone re-positioning, pest control, etc.). The following table shows a
summary of these services by contract or government units:



38
     International Merchant Purchase Agreement Card.

                                                       37
                        Table 5. Services by Contract of Government Units
                                   Maintenance            Burial Related Services
                             Contract    Government Contract          Government
                   Army         16            3              8              3
                   Navy          3            0              0              0
                  Air Force      4            1              1              1
                    Total       23            4              9              4

Contracted maintenance was typically part of a larger, base-wide operations and maintenance
contract which may or may not have cemetery specific Contract Line Item Number (CLIN) or
performance tasks included. Government employees performing maintenance or burial services
were typically part of a base Department of Public Works or similar unit. Quality assurance
tasks were performed by the Contracting Officer Representative (COR) or designee, or assigned
government employee.

Overall, we observed that cemetery grounds maintenance was adequate, except for isolated
instances where plot appearance was not kept at a standard consistent with other areas, regardless
of who was maintaining it. At the sites we visited, personnel maintained grounds consistent with
local cemetery conditions and the grounds presented an appearance suitable for the respect and
reverence due the interred. It was unclear whether oversight was adequate to ensure
maintenance performance but obvious damage to headstones, bare plot ground, and other lapses
we noted indicate that oversight may not have been as timely or rigorous as expected under
contract terms.

While we did not view a sufficient number of interments or disinterments to adequately address
the overall quality of burial-related services performance and monitoring of those services, those
that we did observe were conducted with care and respect and were supervised. In discussions
on quality assurance efforts, no instance of problems in this area was cited by base staff.

Unnecessary Contracted Maintenance
At one location we found the following situation regarding the performance of unnecessary
contracted maintenance:

      •   A military site containing a cemetery was closed under provisions of the Base Closure
          Act. 39 Under another act, 40 the Army was authorized to convey base property to a local
          governmental entity (hereafter “entity”).
      •   A Memorandum of Agreement (MOA) was executed between the Army and the entity 12
          years ago.
      •   Under “Conditions To Transfer,” the entity agreed to “perform in perpetuity” various
          grounds and fixtures maintenance tasks pertaining to the cemetery.

We discussed a number of fiscal and administrative implications of the MOA with the Command
at a follow up visit. Of particular note we discussed the following:
39
     Base Closure and Realignment Act, P.L. No. 100-526, 102 Stat. 2623 (1988).
40
     Military Appropriations Act 1996, Section 125 (a).

                                                        38
     •   The MOA is an enforceable contractual agreement which required the entity to maintain
         the cemetery in perpetuity. Nonetheless, there may be a legal basis for the Army to be
         responsible for maintenance of sites for which a burial took place.
     •   There is no vehicle in the MOA for the Army to enforce the maintenance provisions.
         However, the Army may have grounds to bring legal action against the entity and either
         demand specific performance of the MOA’s maintenance provisions or reimbursement
         for costs incurred by the Army to perform them.
     •   The Army is obligating funds and incurring costs for which another entity is responsible.

The Installation Commander and CSM discussed these concerns with the entity and are working
to resolve them.

International Merchant Purchase Agreement Card versus Contract for
Services
One Air Force site we visited used government employees to prepare burial plots, but an outside
vendor to perform interments. The vendor was paid through use of an IMPAC card (essentially a
government credit card for purchases). We understood such activities could have occurred an
average of once a month or 12 times a year, i.e. more than intermittently and may violate
instructions regarding IMPAC card use.

We also reviewed DoD and Air Force guidance on purchase guide usage and management
concerns and found it to be extensive and detailed. 41 Pursuant to AFI 64-117, Air Force
Government-Wide Purchase Card (GPC) Program, Paragraph 2.3.3.2.8, the Agency/Organization
Program Coordinator: “reviews purchase card transactions at least annually to identify vendors
with which frequent or recurring purchases are made, and evaluates purchasing practices with
those vendors; refers the information to the CONS/CC to consider for contracts or other
agreements, such as blanket purchase agreements, or discount pricing arrangements.”

This information was turned over to the Air Force IG for their use/action.

Gratuitous Services
At one Air Force site, some services were being performed at no cost to the government by an
existing contractor. We found there were no specific contract clauses governing those services
nor was there any indication of another written agreement or directive permitting the work to be
performed.

Concerned that the donated services posed a potential appropriations law issue, we obtained a
preliminary legal assessment and provided it to the Air Force IG. That assessment determined
that “gratuitous services” may be permissible, so long as it was agreed upon by the parties and
properly documented in the contract. That assessment also agreed with our concern regarding


41
  Department of Defense Government Charge Card Guidebook For Establishing And Managing Purchase, Travel,
And Fuel Card Programs, 21 December 2011, Chapter 2, Common Business Rules for All Card Programs:
Purchase, Travel, and Fuel; Appendix A, Unique Business Rules for Purchase Card Programs.

                                                   39
potential legal liability. Subsequently, this issue was referred to the Service Inspector General
for resolution. 42

Contractor Work for Determining Burial Eligibility
At two Army sites, contractors were tasked by the installation to determine whether a burial
request was suitable under applicable guidance. In one instance, the contractor:

      •    Determined eligibility for interment based on work with family members and the funeral
           home,
      •    prepared the required form for recording key data elements and forwarded it to the
           appropriate agency,
      •    maintained a spreadsheet of interments which, in effect, served as the official report of
           monthly activity, and
      •    maintained a list of reservations for future interment.

The work described was performed without prior review or approval by the COR or any other
designated government employee. 43

At another cemetery, the Contracting Officer (KO) 44 was expected to verify burial eligibility and
then authorize the contractor to proceed with interment arrangements. In fact, the contractor
performed all the communication and research on eligibility prior to notifying the KO or other
government representative.

In both instances, adequate oversight—through prior approval or periodic review—was not
evident. This could have led to erroneous approval or denial of burial eligibility and an
ineligible interment.

Maintenance Lapses                                                            Figure 5. Headstone Destroyed by
Although, in general, cemetery sites appeared well                           Improper Lawn Mowing Operations
maintained for local environmental conditions 45 and suitable
for their intended purpose, we noted visible problems at
some sites:

      •    damaged headstones, primarily from lawn mowing,
      •    bare or inadequately covered plots,
      •    varying ground coverage—weeds, non-uniform
           grass, and
      •    vehicle ruts.
                                                                             Source: DoD OIG-SPO
Contract documentation generally specified maintenance requirements, a quality assurance
program, and oversight of contractor performance; there were no observed problems with

42
     This is in the hands of the appropriate investigative organization for disposition.
43
     During our site visit, we were informed this responsibility was removed from the contractor.
44
     “KO” is used since “CO” refers to Commanding Officer.
45
     Sites ranged from sea-level coastal areas to high desert and semi-arid plains.

                                                          40
contract documents. However, the existence of the observed problems indicates a potential
oversight lapse, from the government (COR), in terms of adequate performance monitoring of
contract execution of contracts terms.

Conclusion
Contracts covered burial related services or cemetery maintenance responsibilities. There was
no consistency between military services and individual installations as to type of contracts, or
whether the activities were performed by government employees instead of contractors. Issues
pertaining to contracts were identified and brought to the attention of appropriate personnel as
warranted.

Recommendations, Management Comments, and Our
Response
Deleted Recommendation.
As a result of further analysis, we determined that draft Recommendation 4.b.(1) and 4.b(2) were
not necessary as the intent of the recommendation is captured in Recommendation 1 and
Recommendation 2. We revised the numbering of Recommendations 4.a.(1) and 4.a.(2) to 4.a.
and 4.b. to accommodate this change.

 4.a. Executive Director of the Army National Cemeteries Program direct the contracting officer
 representative, for the site where unnecessary contract maintenance is occurring, to cease
 performing tasks not expressly included in the contract Statement Of Work and require all tasks
 be performed by the [entity] as expressly stated in the Memorandum Of Agreement.

 4.b. Executive Director of the Army National Cemeteries Program: If the [entity] refuses to
 comply with the MOA, then take appropriate corrective action to enforce the agreement.

Management Comments
The Executive Director for Army National Cemeteries concurred with Recommendations 4.a.
and 4.b. and provided comments for both.
   •   4.a. The installation and contractor ceased performing tasks not expressly included in the
       contract’s Statement of Work.
   •   4.b. The entity agreed and is performing the tasks according to the contract. The
       installation commander will continue to monitor the situation and take action as
       necessary.

Our Response
Comments of the Executive Director for Army National Military Cemeteries are responsive and
meet the intent of the recommendations. No further comments are required.




                                                41
This Page Intentionally Left Blank




               42
Observation 5. Cemetery Funding
Installation commanders have no discrete funding allocated for military cemetery operations.

A lack of fiscal policy and guidance at OSD and Service level for fiscal support of cemetery
operations and an inability to identify the costs of cemetery operations caused this funding issue.

This lack of discrete funding for military cemetery operations has contributed to deficient
cemetery maintenance and operations due to insufficient funding.

Background
Funding for cemetery operations has not been a discrete budget line in the funding provided to
the installation commanders. It has been rolled up into the general funding line for grounds
maintenance. Generally, the cemeteries are treated the same as the rest of the installation’s
grounds/property. Many commanders stated their desire for a discrete funding line for cemetery
operations. Generally, this assessment raised the awareness of these cemeteries and their
importance to the installation commanders, Services, and to OSD. A discrete funding line would
further increase awareness and priority and ensure necessary financial resources are available.

Discussion
Many installation commanders stated that they would prefer to have a designated funding line for
their cemeteries. Installation commanders do not have discrete funding lines for their cemetery
operations and therefore must make funding allocation decisions among competing priorities.
The cemetery operations and maintenance expenditures are generally rolled up under the
installation’s operation and maintenance budget.

The proposed funding would comprise all aspects of cemetery operations to include:

   •   grounds maintenance (grass cutting, seeding and watering, and fencing),
   •   burial operations (digging graves, burial, and then refilling them),
   •   headstone placement and maintenance,
   •   road and path maintenance, and
   •   records management.

Army Installation Management Command is currently developing a cemetery funding model that
reportedly will lead to a cemetery funding line for Army Cemeteries. We did not see evidence of
the other Services doing that. The Army model therefore could be used as a template.

Conclusion
Not having clearly defined policy regarding the roles and responsibilities of the Services and
installations with respect to cemetery operations has created a systemic issue with respect to
maintenance and operations. OSD and the Services should develop a cemetery operations
costing method prior to allocating monies for operations. Insufficient installation funding or a
failure to prioritize use of funds has contributed to identified shortcomings provided to each
installation we visited. New DoD cemetery policy must lay out clear roles and responsibilities,
with funding obligated, and then follow up with appropriate oversight.

                                                43
Recommendations, Management Comments, and Our
Response
Redirected Recommendation
As a result of management comments, we redirected Recommendation 5.a. from Under Secretary
of Defense for Personnel and Readiness (USD (P&R)) to the Under Secretary of Defense for
Acquisition, Technology, and Logistics (USD(AT&L)), who more appropriately has the
authority to implement the recommendation. This also coincides with responsibilities as defined
in DoD Directive 5134.01.

We also redirected the Navy portion of Recommendation 5.b. from the Assistant Secretary of the
Navy for Manpower and Reserve Affairs to the Assistant Secretary of the Navy
(Comptroller/Financial Management).

 5.a. Under Secretary of Defense for Acquisition, Technology, and Logistics, in coordination
 with the Services, consider developing a cemetery operations funding line for each installation
 with a cemetery.

Management Comments Required
Because this recommendation was redirected, we request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics provide comment in response to the final report.

 5.b. Assistant Secretary of the Navy (Comptroller/Financial Management), Assistant Secretary
 of the Air Force for Manpower and Reserve Affairs, and Executive Director of the Army
 National Cemeteries Program, ensure cemetery funding is established and maintained consistent
 with Office of Secretary of Defense guidance.

Management Comments and Management Comments Required
Army. The Executive Director for Army National Military Cemeteries concurred with
Recommendation 5.b., stating that the Secretary of the Army established a funding line for all
Army cemeteries within its Program Objectives Memorandum for FY 15-19. Additionally,
ANMC’s Table of Distribution and Allowances went into effect on April 3, 2013, establishing a
full time Resource Management Officer.

Air Force. The Assistant Secretary of the Air Force (Manpower and Reserve Affairs)
concurred with Recommendation 5.b. The Air Force stated they will concur with OSD guidance
on cemetery funding where it is applicable and will develop policies to meet specific
requirements.

Navy. Because this recommendation was redirected, we request that the Assistant Secretary of
the Navy (Comptroller/Financial Management) provide comment in response to the final report.



                                               44
Our Response
Army. The comments from the Executive Director for Army National Military Cemeteries are
responsive and meet the intent of the recommendation. No further comment is required.

Air Force. The comments from the Assistant Secretary of the Air Force (Manpower and
Reserve Affairs) are responsive and meet the intent of the recommendation. No further comment
is required

Navy. The comments of the Assistant Secretary of the Navy for Manpower and Reserve
Affairs are responsive. We request comment to this recommendation from the Assistant
Secretary of the Navy (Comptroller/Financial Management) in response to the final report.




                                              45
This Page Intentionally Left Blank




               46
Observation 6. Civilian Cemeteries
The operational and legal requirements and standards for civilian cemeteries located on military
installations have not been determined.

This is due to missing legal records and a lack of guidance from OSD and at the Service level for
civilian cemetery operations and maintenance. Additionally there is no discrete funding
provided for the operations and maintenance of these cemeteries.

As a result, due to lack of guidance and funding, civilian cemetery operations and maintenance
has been inconsistent and below a standard that would present a respectable image to the public.

Applicable Criteria
     •   Army Regulation 210-190. Subpart 2-2, Private Cemeteries, Government-owned land,
         February 16, 2005. 46

Background
The Army has approximately 600 civilian cemeteries on their installations. Fort Knox alone
accounts for over 100 of these. The Marine Corps, Navy, and Air Force also have civilian
cemeteries, although not to the extent of the Army. The current total is over 700 for all Services.
Some of these are identified in documents, but have never been physically located on their
installations. Grave markings range from ornate and very costly headstones to simple field
stones without any markings. Some of these are historically significant and have been cared for
with special attention. For example, Fort Knox has the grave of President Lincoln’s grandmother
and Fort Meade has the grave of one of President George Washington’s most trusted aides. 47

These cemeteries predate the establishment of the installations. The majority of them are closed
but some are still open for burials. Sizes range from just one grave to over 1000, with burials
from the 18th to the 21st centuries. They range from family plots to those operated by local
churches. The main challenge we observed was confusion over what responsibilities rested with
the installation command regarding the cemetery upkeep.




46
   For purpose of this regulation, a private cemetery is any cemetery or burial plot on the installation that, regardless
of present ownership, was initially owned by a person or agency other than the United States. Therefore, even if the
United States acquired fee title to the underlying land, if the cemetery was in place at the time of acquisition and
graves were allowed to remain in place, the cemetery remains a private cemetery under Army policy. Regardless of
why the cemetery was allowed to remain in place, the Army owes certain duties to the family, church, tribe(s), or
private cemetery association that has an interest in the burial sites and to the next of kin of the individuals buried
there. Access and visitation rights continue. There is no automatic right for continued burial (unless the original
condemnation decree for acquisition of the site provided for future interments or other responsibilities). The request
must show some right or reason why the burial in this cemetery is appropriate. In order to allow burial of an
individual in the cemetery, a perpetual easement must be granted to the next of kin under authority of Section 1314,
Title 40, United States Code (Public Law 107-217, Section 1, 116 Stat. 1139, Aug. 21, 2002) (40 USC 1314). Rights
of entry may be granted while the easement is being processed.
47
   Major Thomas Snowden. Buried in the Snowden Cemetery located at Fort Meade.

                                                           47
Discussion
While outside the announced scope of this assessment, the team was asked by Congressional
Staff to look at the conditions of these cemeteries. The team did so and visited them at all four
Services’ installations.

The Army has current guidance in AR 210-190 regarding operations and standards for these
private cemeteries. 48 In some cases, legal documents existed that laid out the aspects of the
military’s relationship to the cemetery, but most installations did not have these documents and
commanders were not sure if they ever existed. Given the lack of documentation, it was not
clear what the legal requirements of the government and DoD were with respect to private
cemeteries.

Generally, the cemeteries were maintained to a minimum standard. This standard included:

      •    allowing access,
      •    maintaining fencing,
      •    removing fallen trees and limbs that may prove a hazard, and
      •    cutting the grass.

We observed no upkeep of actual headstones or graves. If a tree or limb fell and broke a
headstone, the installation would remove the tree or limb but leave the broken headstone in
place. Flowers, candles, and other post funeral/burial items had been left on the graves. Some of
these were years old and led to an unkempt appearance.

Two notable exceptions were Naval Support Activity Crane in Indiana and Scott Air Force Base
in Illinois. Crane began a program 3 years ago to completely refurbish all 29 of their civilian
cemeteries. The results were impressive and cost over $1.5 million. Scott has two very small
cemeteries. A staff member has worked with the installation grounds maintenance personnel and
a local Boy Scout troop to repair the grounds and fencing surrounding the cemeteries.
                             Figure 6. Civilian Marker Refurbishment at NSA Crane
NSA Crane’s
contracted
refurbishment/
renovation
consisted of
fixing broken
headstones
(mostly civilian)
and also raising
and aligning
headstones as        Source: DoD OIG-SPO
well. It also included a headstone cleaning that transformed them from a dingy grey color to a
bright and vibrant sheen (with no adverse effects to the stone itself). The contract also included
before and after photos of each headstone and an accurate reading of what was written on the
48
     See Footnote on previous page for the entire paragraph.

                                                          48
stone (which for the most part was illegible             Figure 7. Civilian Grave in Civilian
prior to the cleaning). This effort proved to be          Cemetery on Military Installation
beneficial with local civilian-military relations
with the surrounding communities.

Three installations (Forts Knox and Meade and
Scott AFB) have produced brochures
highlighting their respective civilian
cemeteries. These brochures highlight the
local history represented by those interred.

Two installations (Carlisle Barracks and Fort
Sill) maintained cemeteries containing the        Source: DoD OIG-SPO
interred remains of American Indians. Carlisle’s cemetery contains remains of both American
Indians (from the Indian school operated at Carlisle from the 1870s to 1918) and U.S.
servicemen and their dependents. Fort Sill has five specific Indian cemeteries, in addition to the
military cemetery. We found these Indian cemeteries to be maintained to the same standard as
military cemeteries.

Conclusion
Installation commanders are doing what they think is right without appropriate guidance and
oversight from Service and OSD. Generally, commanders are maintaining the civilian
cemeteries by: allowing and maintaining access to the sites, cutting the grass around and inside
each cemetery, removing fallen trees and limbs, and maintaining (if present) a fence around the
site. They usually maintain a “hands off” approach to the actual graves and headstones. The
result has been that gravestones at some of these cemeteries presented an overall unkempt
perception and did not favorably reflect on the military installation and Services.

Recommendations, Management Comments, and Our
Response
Redirected Recommendation
As a result of management comments, we redirected Recommendation 6 from the Under
Secretary of Defense for Personnel and Readiness to the Under Secretary of Defense for
Acquisition, Technology, and Logistics.

 6. Under Secretary of Defense for Acquisition, Technology, and Logistics, in coordination with
 the Services, develop a civilian cemetery operations standard which also considers establishing a
 funding stream for the maintenance and operations of civilian cemeteries on the military
 installations and Services.

Management Comments Required
Because this recommendation was redirected, we request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics provide comment in response to the final report.

                                                    49
Unsolicited Management Comments
Although not required to comment, the Executive Director for Army National Military
Cemeteries noted that it would update its regulation and funding guidance in line with new
guidance from OSD. The Executive Director stated that they recognized the responsibility to
provide and conduct basic services to ensure a professional cemetery appearance, and for health
and safety concerns. However, the Executive Director expressed concern regarding the use of
appropriated funds to maintain civilian cemeteries beyond the basic standard. The Executive
Director further stated that they have included limited standards within its draft AR 290-5 which
could serve as a useful foundation for other cemeteries under DoD’s purview. The Executive
Director also provided definitions of what constituted Private (Civilian) cemeteries on both
government land and on private land (land that is surrounded by a military installation). For the
full text of the Executive Director’s comments, see the Management Comments appendix of this
report.

Our Response
We appreciate the comments from the Executive Director for Army National Military
Cemeteries regarding Civilian Cemeteries and agree with the funding comments. These should
serve as a useful beginning for the necessary discussion on how to appropriately and legally
maintain the over 700 civilian cemeteries currently existing on military installations.




                                               50
Part III – Other Matters
Introduction
This section contains a series of observations which were outside the scope of our charter. There
are no corresponding recommendations.




                                               51
This Page Intentionally Left Blank




               52
Other Matters.
Burial of Personnel Convicted of Capital Crimes
There are two cemeteries with former military persons convicted and executed for committing
capital crimes (Schofield Barracks, Hawaii and Fort Leavenworth, Kansas). Schofield Barracks
has six interments of those executed from the World War II era. Fort Leavenworth is the home
of the United States Disciplinary Barracks where military prisoners convicted by courts martial
of a capital crime are held; there are 241 known interments there; some of these were federal and
military prisoners who died while in captivity and others were executed for their crimes, to
include 14 German Prisoners of War (POWs) executed for murdering other German POWs
during World War II.

Current U.S. law states that those convicted of committing federal or state capital crimes may not
be buried in National Cemetery Administration (VA) or Arlington National Cemeteries. The
interment
authority for            Figure 8. Fort Leavenworth and Schofield Barracks Cemeteries
burial in a
military
installation
cemetery is not
clear. The U.S.
Code (38 Chapter
24 Section 2411)
does not
explicitly state
that felons are
prohibited from      Source: DoD OIG-SPO
burial in other military cemeteries other than Arlington. 49


The Ft. Leavenworth installation commander and staff were uncertain how to proceed if
someone imprisoned there was convicted of a capital crime and was either executed or died in
captivity. If the family did not claim the body, then where was the deceased to be buried? The
regulations are silent on this point. There is room for additional interments at Leavenworth.

Additionally, military leaders at Guantanamo Bay, Cuba had set aside a portion of their cemetery
for the possible interment of a detainee, whether convicted of a capital crime, some lessor
offense, or if still in the pre-trial phase, if the body was not repatriated.




49
  38 USC Sec 2411. “Prohibition against interment or memorialization in the National Cemetery Administration or
Arlington National Cemetery of persons committing Federal or State capital crimes”

                                                      53
World War II Prisoners of War
In addition to the aforementioned Fort Leavenworth cemetery, eight cemeteries within the
population we assessed had interred German and Italian POWs who had died during their
captivity. One cemetery had a Japanese POW. At one time, there were many Japanese POWs
interred but their remains, except one, were repatriated,
at the Japanese Government’s request, after the war.          Figure 9. POW Graves



For the most part, there was no segregation of their
graves from that of U.S. personnel. These graves are
maintained to the same standard as the rest of the
cemetery’s population. Local German and Italian
groups place flowers and flags commemorating their
service during their respective nation’s Remembrance
Day.
                                                                    Source: DoD OIG-SPO
Personal Identifiable Information
A DoD standard for Personal Identifiable Information (PII) for deceased persons interred at DoD
installations is required based on current ambiguity. The team provided this opinion with the
Services:
        In summary…a deceased's personal information is not PII under either DoD or SSA regulations. However,
        the deceased's family members may well have a privacy interest in blocking the public release of the
        decedent's personal information and, presumably, may have grounds to claim damages resulting of any
        public release that occurred without their consent. Therefore, we (members of DoD who are involved in
        cemetery management) should take reasonable steps to ensure that the SSANs and other Privacy Act-
        Protected and/or PII, other than is listed on their gravesite monumentation, is not released to the public
        without the consent of family members, heirs, beneficiaries, etc. 50

Open/Closed Cemetery Designation
Whether a military cemetery should remain open or be closed was an issue at many of the
military cemeteries we visited. Most commanders want them closed to new interments. All
recognized the need to provide for second interments of surviving spouses. Nine cemeteries
operate as closed (Carlisle, Edgewood, Great Lakes, Volk, Leavenworth, 51 Gordon, Benicia,
Meade, and Key West). There is no room for new interments and second interments are non-
existent. The rest, as long as they were taking interments, regardless of designation, were
considered open. How this decision was made and by whom needs to be included in OSD and
Service level guidance. The Army’s Executive Director for Army National Military Cemeteries
(ANMC) established that any cemetery taking interments would be classified as open. 52
Additionally, we discussed the final authority to deny burial at a cemetery, if more space is

50
   Summary of a Legal Opinion provided to the team leader on 9 May 2012.
51
   While the Fort Leavenworth Cemetery is considered closed, there is room for more interments. See “Burial of
Personnel Convicted of Capital Crimes,” above, for more details.
52
   Army Post Cemeteries Way Ahead. 11 September 2012.

                                                       54
available to take on additional veterans and/or family members. Commanders felt this to be their
prerogative, but regulations are silent on who has the final authority. In Army guidance, garrison
commanders do have the authority to process requests for interment and authorize disinterments.
The Navy and Air Force have no guidance on this issue. We believe that, if there is room, then
continued interments should be allowed until the cemetery is full.




                                               55
This Page Intentionally Left Blank




               56
Part IV – Individual Installations
Introduction
This section contains a series of individual installation statistics and comments regarding what
we observed.




                                                57
This Page Intentionally Left Blank




               58
Individual Installation Statistics and Comments
                                        Table 6. Installation Statistics and Comments
Installation    Service   Dates            Total    Total         Graves   Interments    Open/    Civilian     Comments
                          Visited          Graves   Interments/   Sample   Sample Size   Closed   Cemeteries
                                                    Inurnments    Size
Carlisle        Army      April 2 – 4      229      229           229      229           Closed   No           Initially an Indian
Barracks                                                                                                       cemetery.
Aberdeen        Army      April 9 - 12     290      297           166      166           Closed   Yes
Proving
Ground
Edgewood        Army      April 9 - 12     135      138           100      100           Closed   Yes
Fort Sheridan   Army      April 23 -       2,189    2,549         334      387           Open     No           BRAC Installation
                          25
Fort Sill       Army      May 7 – 9        3,492    7,280         347      455           Open     Yes          Indian Cemeteries
Fort Riley      Army      May 7 – 9        3,723    4,967         349      473           Open     Yes          POWs
Fort            Army      May 10           241      241           149      149           Closed   No           Executed U.S.
Leavenworth                                                                                                    Prisoners and POWs
Schofield       Army      June 18 - 21     1,838    1,993         318      350           Open     No           Executed U.S.
Barracks                                                                                                       Prisoners. POWs
Fort Benning    Army      July 8 – 11      7,737    10,037        366      488           Open     Yes          50 + Civilian
                                                                                                               Cemeteries
Fort            Army      June 11 –        2,734    3,362         338      418           Open
Huachuca                  13
Fort Gordon     Army      July 9 - 10      22       22            22       22            Closed   Yes          POW Cemetery
Fort Leonard    Army                       598      712           234      279           Open     Yes          POWs
Wood
Benicia         Army      July 30 -        209      211           136      137           Closed   No           POWs
Arsenal                   August 1
Presidio of     Army      July 30 -        384      406           193      207           Open     No
Monterey                  August 1
Vancouver       Army      July 23 – 27     1,176    1,267         290      313           Open     No           BRAC Installation
Barracks
Fort Worden     Army      July 23 – 27     378      426           191      214           Open     No
Fort Stevens    Army      July 23 – 27     200      213           132      137           Open     No
JBLM            Army      July 23 - 27     890      986           269      299           Open     Yes
Fort Meade      Army      August 13 -      304      304           170      170           Closed   Yes          POWs
                          15
Fort Knox       Army      August 27 –      808      952           261      308           Open     Yes          100 + Civilian
                          29                                                                                   Cemeteries and
                                                                                                               POWs
Fort Bragg      Army      August 28 -      2,664    2,806         336      336           Open     No
                          31
Fort Lawton     Army      July 23 - 27     940      1,073         273      305           Closed   No           POWs
Great Lakes     Navy      April 26 -       175      175           121      121           Closed   No
Naval Base                27
NSA Crane       Navy      May 23 - 24      N/A      N/A           N/A      N/A           N/A      N/A          29 Civilian
                                                                                                               cemeteries. Some
                                                                                                               with military
                                                                                                               personnel buried.
Oahu            Navy      June 22          N/A      N/A           N/A      N/A           N/A      N/A          Civilian cemetery
                                                                                                               with military
                                                                                                               personnel buried.
GTMO            Navy      September        349      349           183      183           Open     Yes
                          5–7
Maine           Navy      September        158      158           112      112           Closed   No
Memorial                  10 - 11
Offutt AFB      Air       May 21 - 24      752      796           255      267           Open     No
                Force
Volk Field      Air       May 21           4        4             4        4             Closed   No           3 buried persons plus
                Force                                                                                          a memorial
F.E. Warren     Air       June 14 –        850      850           266      266           Open     No
AFB             Force     15
Robins AFB      Air       July 11          N/A      N/A           N/A      N/A           N/A      Yes          Civilian cemeteries
                Force
Scott AFB       Air       July 19          N/A      N/A           N/A      N/A           N/A      Yes          Civilian cemeteries
                Force
Fairchild       Air       July 30 -        654      700           243      256           Open     No
AFB             Force     August 1
Quantico        Marine    August 8         N/A      N/A           N/A      N/A           N/A      Yes          20 + Civilian
Marine Base     Corps                                                                                          cemeteries




                                                                  59
This Page Intentionally Left Blank




               60
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from January 24, 2012, to November 30, 2012, in accordance with
the Quality Standards for Inspection and Evaluation. We planned and performed the assessment
to obtain sufficient and appropriate evidence to provide a reasonable basis for our observations,
conclusions, and recommendations, based on our objectives. Site visits to Military Cemeteries
were conducted from April to September 2012.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, Service regulations and guidance.

The scope of our assessment for Military Cemeteries was to determine whether U.S. Military
goals, objectives, plans, guidance, and resources to operate and maintain cemeteries were
prepared, issued, operative, and relevant.

We visited or contacted organizations in the U.S. that are responsible for planning and
accomplishing the operating and maintaining Military Cemeteries. We also visited with leaders
of the Service Inspectors General involved in this process.

The Cemetery Team chronology was:

January – March 2012                 Research and Service Academy visits

April - September 2012               Fieldwork

September – November 2012            Analysis and report writing

March 2013                           Draft assessment report issued

April 2013                           Management comments received and evaluated

Limitations
We limited our review to Military Cemeteries on Military Installations with human interments.
Additionally we looked at some Civilian Cemeteries on Military Installations.

Use of Computer-Processed Data
We did utilize computer-processed data in this assessment: specifically, spreadsheets and output
from relational databases. We did not independently assess the reliability of each file provided.
Examples including: formula verification, report output formats, etc.

Use of Technical Assistance
We did use Technical Assistance to perform this assessment.


                                               61
Acronyms Used in this Report
The following is a list of the acronyms used in this report.

AFB                            Air Force Base
AFI                            Air Force Instruction
ANCP                           Army National Cemeteries Program
ANMC                           Army National Military Cemeteries
AR                             Army Regulation
BRAC                           (Defense) Base Realignment and Closure (Commission)
CLIN                           Contract Line Item Number
COR                            Contracting Officer Representative
CSM                            Command Sergeant Major
DA                             Department (of the) Army
DoD                            Department of Defense
DoD IG                         Department of Defense Inspector General
FAR                            Federal Acquisition Regulation
GIS                            Geographic Information System
GTMO                           Guantanamo Bay, Cuba
HASC                           House Armed Services Committee
IMPAC                          International Merchant Purchase Agreement Card
KO                             Contracting Officer
MAJCOM                         Major Command (Air Force)
MOA                            Memorandum of Agreement
NDAA                           National Defense Authorization Act
NSA                            Naval Support Activity
OIG                            Office of Inspector General
OSD                            Office of the Secretary of Defense
PAM                            Pamphlet
PII                            Personal Identifiable Information
PL                             Public Law
POC                            Point of Contact
POW                            Prisoner of War
SOP                            Standard Operating Procedure
SSA                            Social Security Administration
SSAN                           Social Security Account Number
U.S.                           United States (of America)
USC                            United States Code
VA                             Veterans Affairs




                                                 62
Appendix B. Summary of Prior Coverage
As noted previously, there have been no official oversight reports on the status of U.S. Military
Cemeteries. However, during the last 2 years, the Government Accountability Office (GAO) and
the Department of Army Inspector General have issued a number of reports and testimonies
discussing cemetery operations at Arlington National Cemetery. Additionally, the Inspectors
General for the Army, Navy, and Air Force have issued reports on their respective Service
Academy Cemeteries within the past year. The team used these to build our knowledge base for
the cemetery assessment.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

Some of the prior coverage we used in preparing this report includes:

Government Accountability Office
GAO-12-105, “Arlington National Cemetery: Management Improvements Made, but a Strategy
Is Needed to Address Remaining Challenges,” December 2011.

GAO-12-99, “Arlington National Cemetery: Additional Actions Needed to Continue
Improvements in Contract Management,” December, 2011.

Department of Army
“Report to Congress on Implementation of Army Directive on Army National Cemeteries
Program,” 18 September 2011.

Arlington National Cemetery Gravesite Accountability Task Force, “Report to Congress on
Gravesite Accountability Study Findings,” 22 December 2011.

Department of Army Inspector General
Army IG Report, “Department of the Army Inspector General Inspection of the Army National
Cemeteries Program and Arlington National Cemetery,” 16 September 2011.

Army IG Report “Special Inspection of West Point Cemetery to Assess Compliance with
Policies, Guidance, and Regulations,” 20 July 2012.

Department of Navy Inspector General
Navy IG Report, “Inspection of United States Naval Academy Cemetery and Columbarium,” 30
March 2012.

Department of Air Force Inspector General
Air Force IG Report, “United States Air Force Academy (USAFA) Cemetery Special Inspection
Report,” March 2012.



                                               63
This Page Intentionally Left Blank




               64
Appendix C. Glossary
This appendix provides definitions of terms used in this report.

Army National Cemeteries Program (ANCP) – The division in charge of Army
cemetery policies and procedures which provides guidance to Military cemeteries based upon
best practices.

Civilian Cemetery – Cemetery containing civilian remains on a military installation. These
predate the military installation’s establishment.

Closed Cemetery – Cemetery no longer accepting any interments.

Defense Casualty Information Processing System (DCIPS) – The Department's
functional information system that processes casualty reports, provides cross-functional case
management of casualties to include casualty incident, disposition of remains, mortuary affairs,
personal effects, and remains tracking for current operations and past conflicts. DCIPS permits
interactive update and data exchange with casualty assistance centers, DoD mortuaries, and
service casualty offices. The system also provides DoD with official casualty statistics.

•       All military cemeteries are not represented in DCIPS.

Disinterment – The act of unearthing a deceased’s remains to be transferred and buried at an
alternate site.

DA Form 2122 – The Army’s official record of interment/inurnment for an individual.

DA Form 2123 – The Army’s official logbook of interment/inurnments for the deceased
located at the Military cemetery.

Form AF 593 – The Air Force’s official record of interment/inurnment for an individual.

Geographic Information System (GIS) – An automated tool for locating a deceased’s
grave site in the cemetery.

Interment – The burial of the deceased’s body.

Inurnment – The burial of the deceased’s ashes after cremation.

Military Cemetery – Cemetery containing (mostly) military and family member remains on
a military installation.

Open Cemetery – Cemetery accepting interments.

Quartermaster 14 – The older version for DA Form 2122 before it existed.


                                                 65
Quartermaster 16 – The older version of the DA Form 2123 logbook.

Reservations – The reservation held for a deceased military member or any qualifying
relative or dependent to be buried in the specific cemetery or grave site.

Second Interments – The burial of two deceased personnel in one grave site.

Tier 1 Error – These include cases where a record exists for a decedent, but his or her
information is not reflected on the marker; the record does not match the gravesite location; or an
analyst requires an additional record to close the case.

Tier 2 Error – These include errors such as a missing record, name (misspellings), incorrect
dates of birth or death, and any discrepancy that requires an update to a record or the
spreadsheet. These include rank, Service, religion or any other data from pre-determined fields
that does not require extensive research.




                                                 66
Appendix D. Organizations Contacted and
Visited (Including Cemeteries)
We visited, contacted, or conducted interviews with officials (or former officials) from the
following U.S. organizations:

United States
U.S. Congress
•   Officials assigned to the House Armed Services Committee

Department of Defense
•   Officials assigned to the Office of the Secretary of Defense for Personnel and Readiness
    Casualty and Mortuary Affairs

    Department of the Army

    •   Officials assigned to the Army Inspector General
    •   Officials assigned to the Army National Military Cemeteries
    • Officials assigned to the Army Installation Management Command

    Department of the Navy

    •   Officials assigned to the Navy Inspector General

    •   Officials assigned to the Office of the Secretary of the Navy for Manpower and Reserve
        Affairs
    •   Officials assigned to the Office of the Commander, Naval Installations Command

    Department of the Air Force

    •   Officials assigned to the Air Force Inspector General

Department of Veterans Affairs
    •   Officials assigned to the National Cemetery Administration

    •   Officials assigned to the Office of the Inspector General Audit Office




                                                67
                           Table 7. Cemeteries Visited
                                Cemetery Listing
       Army                       Navy           Air Force      Marine Corps
   USMA – Observed               USNA –          USAFA -
                                Observed          Observed
 Carlisle Barracks, PA        Naval Station      Volk Field,    Quantico, VA
                             Great Lakes, IL        WI

   Aberdeen Proving           Naval Support      Offutt Air
    Grounds, MD               Activity Crane,   Force Base,
                                    IN               NE
Edgewood Arsenal, MD           Honolulu, HI     F. E. Warren
                                                 Air Force
                                                 Base, WY
   Fort Sheridan, IL           Guantanamo       Robbins Air
                                Bay, Cuba       Force Base,
                                                     GA
     Fort Riley, KS           Naval Station       Scott Air
                              Key West, FL      Force Base,
                                                      IL
 Fort Leavenworth, KS                           Fairchild Air
                                                Force Base,
                                                    WA
       Fort Sill, OK
   Fort Huachuca, AZ
 Schofield Barracks, HI
    Fort Benning, GA
Fort Leonard Wood, MO
    Fort Gordon, GA
       JBLM, WA
    Fort Stevens, OR
    Fort Lawton, WA
    Fort Worden, WA
Vancouver Barracks, WA
Presidio of Monterey, CA
  Benicia Arsenal, CA
     Fort Meade, MD
      Fort Knox, KY
     Fort Bragg, NC




                                        68
Appendix E. DoD and Service Policies
Directives
Department of Defense Directive 5134.01, Under Secretary of Defense for
Acquisition, Technology, and Logistics (USD(AT&L)), December 9, 2005
with Change 1, April 1, 2008. This directive establishes the responsibilities, functions,
relationships, and authorities of the Under Secretary of Defense for Acquisition, Technology,
and Logistics (USD(AT&L)).

Department of Defense Directive 5124.02, Under Secretary of Defense for
Personnel and Readiness (USD(P&R)), June 23, 2008. This directive establishes
the responsibilities, functions, relationships, and authorities of the Under Secretary of Defense
for Personnel and Readiness (USD(P&R)).

Regulations
Army Regulation 210-190, Post Cemeteries, February 16, 2005. This regulation
establishes the responsibilities at multiple levels and provides instruction for cemetery operations
and administrative procedures from interments through disinterment.

Army Regulation 290-5, Army National Cemeteries, September 1, 1980. The
publication is specific to the development, operation, maintenance, and administration of the
Arlington and Soldiers’ Home National Cemeteries, but portions of this regulation are referred to
by either the Army Regulation 210-190 or the Department of Army Pamphlet 290-5.

Department of the Army Pamphlet 290-5, Administration, Operation, and
Maintenance of Army Cemeteries, May 1, 1991. This publication describes the
procedures and policies for administration, operation, and maintenance of Arlington’s National
Cemetery, the Soldiers’ and Airmen’s Home National Cemetery and Post Cemeteries.

Secretary of the Army Memorandum, Enhancing the Administration,
Operation, and Maintenance of Military Cemeteries under the Jurisdiction
of the United States Army, April 17, 2012. This memorandum establishes and
appointed an Executive Director for the Army National Cemeteries Program as the functional
proponent for policies and procedures. The responsibilities include establishing guidance on the
administration, operations, and maintenance of all military cemeteries under the jurisdiction of
the Army.

Department of the Army Memorandum, Army Post Cemeteries Way Ahead,
September 11, 2012. This memorandum establishes the Department of the Army’s Way-
ahead on Army cemeteries; record keeping, post cemeteries versus private cemeteries and the
combining both Army regulations into one document.



                                                69
Army Federal Acquisition Regulation (AFARs) Subpart 207.5, Inherently
Government Functions, January 10, 2008; Subpart 246.4, Government
Contract Quality Assurance, October 1, 2010. These sections are the Army-specific
guidance to implement FAR requirements for inherent government functions, and whether they
can be contracted out, and quality assurance.

Navy Medical Command Instruction 5360.1, Decedent Affairs Manual,
September 17, 1987. The Navy’s publication provides for the search, recovery,
identification, care and disposition of remains of deceased persons, but does not provide any
guidance to cemetery operations or administration.

Navy Marine Corps Acquisition Regulation Supplement, April 2008 Change
08-14 (revised 27 September 2012) Part 5246, Quality Assurance. This section
deals only with the use of warranties and does not detail the need for a quality assurance program
or procedure per se.

Air Force Instruction 34-242, Mortuary Affairs Program, Change 1, April 30,
2008. This instruction establishes the guidance and assigns responsibilities for the Air Force
Mortuary Affairs program concentrating in the areas of recovery, segregation, identification, care
and disposition of remains of the deceased personnel in both peacetime and wartime. Minimal
guidance on cemetery operations and administration is provided in the instruction in
“Attachment 4 – Installation Cemeteries Policy.”

Air Force Federal Acquisition Regulation (AFFARs) Management Control
Evaluation Checklist, February 26, 2009; Part 5346, Quality Assurance,
April 21, 2011.

Air Force Mandatory Procedure (MP) 5346.103, Contracting Office
Responsibilities: The Quality Assurance Program, April 21, 2011. These
sections are the Air Force-specific guidance to implement FAR requirements for quality
assurance.

Air Force Instruction (AFI) 64-117, Air Force Government-Wide Purchase
Card (GPC) Program, September 20, 2011. Guidance, both mandatory and suggested,
for use of government credit cards, including IMPAC cards.

Department of Defense Government Charge Card Guidebook for
Establishing and Managing Purchase, Travel, and Fuel Card Programs, 21
December 2011, Chapter 2, Common Business Rules for All Card
Programs: Purchase, Travel, and Fuel; Appendix A, Unique Business Rules
for Purchase Card Programs.

United States Code and Hearings
Public Laws. H.R. 1540, 2012 National Defense Authorization Act.

                                               70
Title 38 USC 24, (38 U.S.C. 24), as of January 3, 2012. Establishment of the
National Cemetery Administration under the Department of Veterans Affairs.

Federal Regulations
Federal Acquisition Regulation (FAR) Subpart 46.4, Government Contract
Quality Assurance; Subpart 46.5, Acceptance. These sections discuss need and
requirements for contract quality assurance and those services acquired meet specified
requirements.

Statistical Analysis
Sampling Techniques, 3rd Ed., William G. Cochran, 1977




                                               71
This Page Intentionally Left Blank




               72
Appendix F. 2012 National Defense
Authorization Act
“SEC. 592. INSPECTION OF MILITARY CEMETERIES UNDER JURISDICTION OF THE
MILITARY DEPARTMENTS.
(a) INSPECTION AND RECOMMENDATIONS REQUIRED.—The Inspector General of each
military department shall conduct an inspection of each military cemetery under the jurisdiction
of that military department and, based on the findings of those inspections, make
recommendations for the regulation, management, oversight, and operation of the military
cemeteries.
(b) ELEMENTS OF INSPECTION.—The inspection of military cemeteries conducted by the
Inspector General of a military department under subsection (a) shall include an assessment of
the following:
(1) The adequacy of the statutes, policies, and regulations governing the management, oversight,
operations, and interments or inurnments (or both) by the military cemeteries under the
jurisdiction of that military department and the adherence of such military cemeteries to such
statutes, policies, and regulations.
(2) The system employed to fully account for and accurately identify the remains interred or
inurned in such military cemeteries.
(3) The contracts and contracting processes and oversight of those contracts and processes with
regard to compliance with Department of Defense and military department guidelines.
(4) The history and adequacy of the oversight conducted by the Secretary of the military
department over such military cemeteries and the adequacy of corrective actions taken as a result
of that oversight.
(5) The statutory and policy guidance governing the authorization for the Secretary of the
military department to operate such military cemeteries and an assessment of the budget and
appropriations structure and history of such military cemeteries.
(6) Such other matters as the Inspector General considers to be appropriate.

(1) INSPECTION REQUIRED.—In addition to the inspections required by subsection (a), the
Inspector General of the Department of Defense shall conduct an inspection of a statistically
valid sample of cemeteries located at current or former military installations inside and outside
the United States that are under the jurisdiction of the military departments for the purpose of
obtaining an assessment of the adequacy of and adherence to the statutes, policies, and
regulations governing the management, oversight, operations, and interments or inurnments (or
both) by those cemeteries.”




                                                73
This Page Intentionally Left Blank




               74
Appendix G. Matrix
          Table 8. Observations and Recommendations/NDAA Language Matrix
                            Congressional Language from the FY 2012 NDAA
                 Adequacy System       Contracts     History and   Statutory Such
                 of the     employed and             adequacy of and         Other
                 Statutes   to fully   Contracting   the Oversight Policy    Matters
                            account    Process                     Guidance
 OBS 1: Ops           X         X                          X           X
 and
 Management
 OBS 2:               X         X                          X           X
 Policy and
 Guidance
 OBS 3:               X         X                          X           X
 Records
 OBS 4:               X                     X
 Contracts
 OBS 5:               X                                                X
 Funding
 OBS 6:               X                                                X       X
 Civilian
 Cemeteries
 Statistical                    X                                              X
 Analysis
 Other                                                                         X
 Matters




                                         75
This Page Intentionally Left Blank




               76
Appendix H. Statistical Analysis




                       77
                                              Tier 1 Estimates


                                                             Estimated Individuals with Errors
    Group               Locations            Lower Bound               Point Estimate     Upper Bound
    All Services             34,123                    36                     73                  110
    Army                     31,181                    30                     66                  102
    Navy                       682                     1*                      1                   3
    Air Force                 2,260                    2*                      6                  12
    *These are the actual error counts. The stat1st1cal lower bounds are negat1ve


                                              Tier 2 Estimates


                                                             Estimated Individuals with Errors
    Group               Locations            Lower Bound               Point Estimate     Upper Bound
    All Services             34,123                11,689                   12,140               12,591
    Army                     31,181                 9,220                    9,670               10,119
    Navy                       682                     147                    165                 183
    Air Force                 2,260                 2,277                    2,306               2,334




The Tier 2 tables are read in the following way. For the 34,123 locations identified in the material

provided by the 29 sites, we estimate there are 12,140 burials with Tier 2 errors. We are 95 percent

confident that the true value lies between 11,689 and 12,591.


Methodological issues encountered: The data from the sites came in various formats. This leads to a

disconnect between the number of records provided to the OIG for the various sites and the estimates

of burials with errors. The estimates refer to individuals whose resting place is in a specific location at

the site. Record counts refer to how information was recorded for a given site-lines in a ledger book,

lines on a photocopy of a report, cells on a spreadsheet, lines in a spreadsheet, or records in a database

file. The records most frequently have information about a single person. However, some records refer

to two or more individuals. Some records report a different name for the person in the previous record.

Some records indicate the grave location is reserved for a specific person but not occupied. Some

report the location is unoccupied. Therefore, while the total number of records gives a rough indication

of the number of burials, it is not an exact count of burials.


The relative numbers (sites, grave locations-based on installation-provided data, and records received)

break down as follows:


                Group       Installations    Locations       Records
            All Services            29        34,123         43,503
                Army                22        31,181          40,471
                Navy                3           682              682
             Air Force              4          2,260             2,350




                                                       78
Appendix I. Management Comments

                         OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                         4000 DEFENSE PENTAGON
                                       WASHINGTON, D.C. 20301-4000




  READINESS AND FORCE
     MANAGEMENT
                                                                                APR 22 2013

          MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF THE INSPECTOR
                                        GENERAL (ATTN: DEPUTY INSPECTOR GENERAL
                                        (S PECIAL PLANS AND OPERATIONS))


          SUBJECT: Assessment of U.S. Military Cemeteries (Project No. D2012-DOOSP0-0108.000)


                  In response to your request, a review of the subject draft has been completed. Concur


          with the observations made. The attached comments are provided for your consideration. My


          point of contact for this matter   ·                    Office of Military Community and


          Family Policy, Casualty and Mortuary Office. She can be reached by telephone at (571) 372-


          5319 or by e-mail




                                                          Charles E. Milam
                                                           Acting Deputy Assistant Secretary of Defense
                                                          (Military Community and Family Policy)


          Attachment:
          As stated




                                                          79
                                Recommendations Requiring Comment


I.a. Under Secretary of Defense for Personnel and Readiness (USD (P&R), publish and
implement cemetery management training guidance focusing on industry standards and best
practice.s.


Comment: Concur that guidance needs to be published. While currently there is no DoD
directive for cemetery management, the policy may be best suited to be under the purview of the
Under Secretary of Defense for Acquisition, Technology, and Logistics (USD(AT&L)). On
March 19,2013, the MC&FP Casualty Office first engaged the Ofi
                                                             f ce of the Deputy Assistant
Secretary of Defense for Installations and Environment (l&E) to identify an I&E point of
contact. On April 12, 2013, I&E identified a POC who then met with the MC&FP Casualty
Office met to start the discussion of which elements of cemetery management should be under
the purview ofl&E and which elements should be under the purview ofUSD (P&R).        A follow­
up working group meeting, based on DASD input from MC&FP and I&E, is scheduled for May
l 0, 2013 to develop a way ahead.


2.a. USD (P&R) provide guidance for military cemetery operations and administration. The
guidance should take into consideration Service components' lessons learned on installation
cemetery operations and administration.


Comment:         Same as comment 1.a.


3.a. USD (P&R):


      (I) Define what constitutes an intermentfinumment record.


      (2) Develop and require maintenance of a standard spreadsheet of a complete record of
interments.


      (3) Standardize accurate maps.


      (4) Develop a standard for temporary grave marking.

      (5)     Define and revamp the reservation system.


Comment: Concur with the recommendations; however, some of the recommendations (i.e.,
mapping) may fall under the purview of USD (AT&L).


S.a. USD (P&R), in coordination with the Services, develop a cemetery operating funding line
for each installation with a cemetery.


Comment: Concur that a cemetery operation funding line is needed; however, this appears to fall
under the purview of the USD (AT &L), as funding for installations is not under the purview of
the USD (P&R).




                                                  80
6. USD (P&R), in coordination with the Services, develop a civilian cemetery operations
standard which aJso establishes a funding stream for the maintenance and operations of civilian
cemeteries on the military installations and Services.


Comment: Concur that a funding strean1 for the maintenance and operations of civilian
cemeteries is needed; however, it appears that this would fall under the purview of the USD
(AT&L).



                                       AdditionaJ Comment


Appendix C. Glossary (Page    67) contains an inaccurate/misleading definition of the Defense
Casualty Information Processing System (DClPS).


   •   DCIPS is the Department's functional information system that processes casualty reports,
       provides cross-functional case management of casualties to include casualty incident,
       disposition of remains, mortuary affairs, personal effects, and remains tracking for
       current operations and past conflicts. DCIPS permits interactive update and data
       exchange with casualty assistance centers, DoD mortuaries, and service casualty offices.
       The system also provides DoD with official casualty statistics.


   •   All military cemeteries are not represented in DCIPS.




                                                 2




                                                81
                                  DEPARTMENT OF THE ARMY
                                ARMY NATIONAL MILITARY CEMETERIES
                                  ARLINGTON NATIONAL CEMETERY
                                    ARLINGTON, VIRGINIA 22211


                                           1 0 APR 2013




Ambassador Kenneth P. Moorefield
DoD Inspector General
Deputy Insp ector Gen eral Special Plans and Operations
      .lllilillilliiiiiii
Attn: l  •
4800 Mark Center Drive
Alexandria, VA 22350-1500


Dear Ambassador Moorefield:


   This is the Army's response, which includes comments from the Executive Director, Army
National Military Cemeteries (formerly named Anny National Cemetery Program), to the DoD
Inspector General Report "Assessment of U.S. Military Cemeteries" (Project No. D2012-
DOOSPO-Ol 08.000).


   I thank your organization and you for the opportunity to provide comments on this report.
The Army concurs with the report's findings, including the assessment that the local installations
have in general been taking good care of their cemeteries. ln addition, these comments provide
an opportunity for the Army to outline our efforts-and potential best practices for all military
cemeteries-to improve and enhance the operations, maintenance and accountability for all those
resting in solemn repose at cemeteries for which the Anny is responsible.




                                                 Kathryn A. Condon
                                                 Executive Director




                                                 82
     DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL REPORT
                        DATED MARCH 8, 2013

                   "ASSESSMENT OF U.S. MILITARY CEMETERIES"

                 DEPARTMENT OF THE ARMY AND
EXECUTIVE DIRECTOR, ARMY NATJONAL MILITARY CEMETERIES RESPONSE




Project: D20 12-DOOSP0-01 08.000
Audit Location: Alexandria, Virginia
Objective Title: Assessment of U.S. Military Cemeteries

Observation I. Cemetery Operations and Management
There was a lack of standardization across and within the Services in the areas of operations and
management. This resulted in a lack of, or insufficient, guidance from OSD and the Services.
As a resuJt, there was rarely one instaJiation office with sole responsibility for the cemetery,
compounding the possibility of mismanagement.

Conclusion:
A combination of issues discussed contributed to the error rates observed. These were not
isolated in their occurrence and were applicable to all Services. Additional OSD guidance,
standardization, management controls, and oversight will lead to improved cemetery
management.

Recommendations:
l.a. Under Secretary of Defense for Personnel and Readiness, publish and implement cemetery
management training guidance focusing on industry standards and best practices.
l.b. [ ... ] Executive Director of Army National Military Cemeteries:
(I) Designate a single POC at each installation with responsibility for overall cemetery
operations.
(2) Ensuring training opportunities are provided for individuals identified with cemetery
operations responsibilities.
(3) Develop and implement a cemetery inspection program.
(4) Develop and implement local cemetery management Standard Operating Procedures.
(5) Direct installation commanders to conduct a 1 00 percent record-to-graves verification.

Action taken or planned.
Concur. The Secretary of the Army has taken deliberate steps to institutionalize the industry­
leading, externally-validated best practices being implemented at Arlington National Cemetery
(ANC) over the past three years in Army cemeteries across the Active, Reserve, and National
Guard components.




                                                2




                                                    83
DoD   IG Report, "Assessment of U.S. Military Cemeteries"
Department of the Army and Executive Director, Army National Military Cemeteries Response




On 17 April 2012, the Secretary of the Army established the Executive Director, Army 1\ational
                   1
Military Cemeteries (ANMC) as the functional proponent for po)jcies and procedures pertaining
to the administration, operation and maintenance of all cemeteries for which the Army is
responsible. On      15 Jun 12, the Secretary of the Army then designated the Executive Director,
ANMC as a HQDA Staff Principal Official, reporting directly to the Secretary of the Army. The
Office of the Executive Director, ANMC just completed its Army-wide staffing of the HQDA
General Order that will codify the mission and three primary roles for the Anny Cemetery
Proponent:


    •    Formulating, promulgating, administering and overseeing policies, doclTine, plans and
         standards pertaining to cemeteries for which the Army is responsible;
    •    Establishing and maintaining gravesite accountability of all those interred and inumed in
         Army national and post cemeteries; and
    •    Providing technical guidance, training, staff assistance and evaluations for those
         cemeteries for which the Army is responsible, including for ANC in accordance with                         I0
         United States Code (U.S.C.)         § 4726.

Between 27 Jun 12 and 7 Dec 12, the Executive Director, ANMC v isited 32 of the Anny post,
                                           2
Indian, POW and other named Anny cemeteries throughout the United States. These visits
served two purposes: First, the Anny Cemetery Proponent explained the capabilities and
technical expertise they would be providing the installations, US Army Regional Support
Commands, and command headquarters. Second, the Anny Cemetery Proponent also used these
initial assessments to better understand local challenges in order to draft a more complete,
precise and practical Army regulation (AR) covering all Army cemeteries (see 2 b .(2 )).            .




While still in its establishment phase, the Office of the Executive Director, ANMC has also
initiated important organizational requirements to enable it to complete its enduring missions.
First, closely linked with its efforts at ANC, the Office of the Executive Director, ANMC is
working proactively with the American Battle Monuments Commission and the Department of
Veterans Affairs, National Cemetery Administration to share best practices and lessons learned.
Second, the approved Office of the Executive Director, ANMC Table of Distribution and
Allowances (TDA) went into effect           3 Apr 13, which includes a requirement for 21 military and
civilian personnel. The Anny Cemeteries Proponent is currently authorized four military
personnel, and will compete in        2013 and beyond within the HQDA manning processes for
additional military and civilian personnel. Finally, the Army has also consolidated all funding


1 This position was initially called the Executive Director, Army National Cemeteries Program (ANCP),       the title
first used within Army Directive 2010-04 (10 Jun   I 0) as the leader responsible   for the two Army National
Cemeteries: Arlington National Cemetery and the Soldiers' and Airmen's Home National Cemetery. Congress
subsequently codified this position into Title 10 U.S.C. Chapter 446 as "Army National Military Cemeteries." As a
result, the HQDA Staff Principal Official has been designated the Executive Director, ANMC.
2 The draft Army regulation tracks by-name forty Army cemeteries within five categories, in addition to over 600
private cemeteries also located on Army property: Army national cemeteries (N=2), Army post cemeteries (N=26),
Army controlled plots in private cemeteries used to re-inter those originally interred   in an Army Cemetery (N=3),
cemeteries originally established to inter enemy prisoners of war (N=8), and cemeteries originally established to
inter those who died while criminally incarcerated (N= I).




                                                             3




                                                                 84
DoD   IG   Report, "Assessment of U.S. Military Cemeteries"
Department of the Army and Executive Director, Army National Military Cemeteries Response




for Army cemeteries within the Management Decision Package (MDEP) "V ANC" beginning in
the Program Objective Memorandum FY15-19 (see 5.b).

Through the Army's efforts to centralize its cemeteries' policy oversight, gravesite
accountability, training and inspections, the Office of the Executive Director, ANMC has been
able to begin efforts to improve standardization, command and control across the Army's
cemeteries, including for those areas recommended by the DoD lG (below).

 l.b.(l) POC at the installations: All Army commands responsible for an Army post
cemetery-the U.S. Military Academy at West Point, Installation Management Command, Army
Material Command, and U.S. Army Reserves-have identified a single point of contact at each
installation responsible for an Army post cemetery. These POCs are currently working with the
Office of the Executive Director, ANMC to conduct their records-to-grave review process (see
 l.b(5)). Upon completion of this I 00% gravesite accountability efo  f rt, these POCs may
transition to coordinate all garrison cemetery staff functions, including grounds maintenance and
burial operations. The Office of the Executive Director, ANMC also communicates regularly
with designated POCs at the headquarters of the above-listed commands and the National Guard
Bureau/Army National Guard, all who have been critical in working through additional policy,
real property and funding issues related to Army cemeteries.

I.b.(2) Training for cemetery personnel: The Office of the Executive Director, ANMC
recently began conducting formal in-person and virtual training courses at ANC for all Army
cemetery managers, although the in-person training spaces have been reduced due to funding
constraints. The in-person course, already required of all ANC personnel, includes the approved
"Standards and Measures" training related to the appearance, process and upkeep of an Army
cemetery. The ANMC training also includes a review of statements of work for contracted
maintenance, as most Army cemeteries' ground maintenance (similar to other parts of the
installation) and interment operations are conducted by contractors.

 l.b.(3) OIP: Arlington National Cemetery has made tremendous improvements in its ability to
self assess and identify potential problems through the development of an organizational
inspection program (OlP). This program, to be finalized this year, addresses the deficiencies
noted by the many external audits and inspections conducted at ANC over the last three years.
The ANC OIP has a dual purpose. First, it is explicitly linked with the ANC's Campaign Plan,
including the 2013 Strategy Map and updated Annex A, serving as an internal assessment tool
for ANC's leaders to help ensure those items most critical to the cemetery's mission remain to
standard. Second, the ANC OIP will be tailored to serve as the benchmark of standards by
which the Office of the Executive Director, ANMC will conduct its external inspections of Army
cemeteries once the Army cemetery personnel are trained (see l .b.(2)). The draft AR 290-5
requires all installation commanders responsible for an Army cemetery to include cemetery
operations and maintenance within their OlP and provide the cemetery-specific results to the
Office of the Executive Director, ANMC. The ANC OIP also helped inform the "Army Internal
Control Process" that will be included for all Army cemeteries as Appendix D within AR 290-5.




                                                         4




                                                             85
DoD IG Report, "Assessment of U.S. Military Cemeteries''
Department of the Army and Executive Director, Army National Military Cemeteries Response




l.b.(4)   Cemetery management SOPs: The Office of the Executive Director, ANMC has
provided three sets of documents to the Army cemeteries to assist in their preparation of
Standard Operating Procedures (SOPs). First, the Office of the Executive Director, ANMC
shared the 2012 ANC Campaign Plan and ANC's "Standards and Measures" with all Army
cemeteries, providing an example template to help leaders conceptualize efforts across the
garrison staff and functional standards to help the cemetery managers complete professionally
cemetery operations and maintenance. Second, the Office of the Executive Director, ANMC has
worked closely with the installations and commands to complete the major update of the
governing Army regulation and new business processes for all Army cemeteries, building on the
best practices and lessons learned from ANC. These drafts included iterative feedback from the
installations and command headquarters, which have in many cases begun applying this interim
guidance within their operations. Finally, the ANC recently developed an "ANC Smart Book"
(see 2.b.(2)), which the Office of the Executive Director, ANMC has shared with the other Army
cemeteries to provide additional best practices for inclusion in their cemetery operations and
maintenance SOPs.


l.b.(5)   Records-to-grave verification: Arlington National Cemetery Is continuing its three
pronged-effort to ensure accuracy and consistency among its ( t) records, (2) the permanent
marker and (3) a geospatially-mapped grave location for all those veterans and their loved ones
laid to rest in its hallowed grounds. The Executive Director, ANMC provided an initial
explanation of this process during the site visits to the installations and included additional
guidance in the Executive Director's      II Sep 12 memorandum to the field. The Office of the
Executive Director, ANMC is now working closely with all commands responsible for Army
post cemeteries to conduct this same robust accounting process at their cemeteries. In addition to
the comprehensive training program for the Army post cemeteries (see para l .b.(2)), the Office
of the Executive Director, ANMC has funded and overseen the scanning of 100% of all Army
post cemetery records. These cemeteries are also now actively collecting photos of all markers
to begin their accountability process, leveraging a streamlined iPhone application and refined
research database developed using the best practices identified in the ANC process. By May
2013, all Army post cemeteries will have established an initial geospatial capability through the
geospatial mapping of all headstones and plots. Moving forward, these maps will be fmther
refined by the Army's accountability efforts. By codifying the lessons learned to complete this
complex effort at all Army cemeteries, the Executive Director, ANMC is ensuring the same
standard of accountability for all veterans and family members interred across the Army that has
been implemented at ANC.


Additional Documentation:
I) Secretary of the Army signed memo, 15 Jun 12, creating a SecArrny-level HQDA Staff
          Principal for Army Cemeteries and ANC as a Direct Reporting Unit to HQDA
2) Organizational Inspection Program, Arlington National Cemetery (March 2013)


Observation 2. Policy and Guidance for Cemetery Operations Varies Between Services
and Sites
There is no policy or directive guidance from the Department of Defense addressing Service
component roles and responsibilities for cemetery operations and administration. This lack of




                                                      5




                                                          86
DoD   IG Repon, ''Assessment   of U.S. Military Cemeteries"
Depanment of the Army and Executive Director, Army Natjonal Military Cemeteries Respoose




guidance directly contributed to the Service components creating their own publications on
cemeteries, as well as creating separate and varying standards. This resulted in identified
problems concerning the following areas:

    •   Official form to record interments,                       •   Map layout of gravesite,
    •   Reservations,                                             •   Scheduled inspections, and
    •   Disinterment,                                             •   Maintenance standard.

Conclusion:
The lack of guidance from the Department of Defense regarding cemetery operations and
administration and the Services' failure to follow their own guidelines has contributed to
variations in cemetery standards. The variation in cemetery operations was systemic; each
Service had implemented their view of the interment process and was doing what it believed to
be correct, but without cross-Service standardization. During our discussions with personnel
from the Under Secretary of Defense for Personnel and Readiness, they discussed their plans to
develop department-wide guidance on cemetery operations.

Recommendation$:
2.b. Executive Director of the Army National Military Cemeteries, complete the update of the
"Army Post Cemeteries Way Ahead" in the Department of the Army's memorandum, dated
September II, 2012, addressing each area assessed in observation 1, including:
(I) consolidation of all manuals into one comprehensive regulation or pamphlet, and,
(2) an outline of practical guidance for Army leaders in the management, operations,
maintenance, and support to the Army Post Cemeteries.

Action taken or planned.
Concur. The Executive Director of the Army National Military Cemeteries:
(1) Regulation: As directed by the Secretary of the Army, the Office of the Executive Director,
ANMC is consolidating the Army's two existing regulations on cemeteries-AR 290-5, '·Army
National Cemeteries" (I Sep 80) and AR 210-190, "Post Cemeteries" (16 Feb 05)-into one
regulation, AR 290-5, "Army Cemeteries." The Office of the Executive Director, ANMC has
completed the final Army wide staffing of the draft AR 290-5, and will forward the AR to the
Army Publishing Directorate by month's end for final administrative and legal review and
publishing. The Military Services Headquarters and National Capital Region Ceremonial
Headquarters of the Air Force, Navy, Marines and Coast Guard have also approved inclusion of
a multi-service chapter within the regulation, formally outlining for the first time the burial and
ceremonial support the Military Services provide at ANC and the Soldiers' and Airmen's Home
National Cemetery. The Office of the Executive Director, ANMC will also be updating the
Department of Army Pamphlet 290-5, "Administration, Operation, and Maintenance of Army
Cemeteries" (1 May 91) once submitting AR 290-5 for final approval and publishing.

(2) Practical guidance: To supplement and bridge the ongoing updates of the Army regulation
and pamphlet, ANC compiled its best practices within an "ANC Smart Book" that the Office of
the Executive Director, ANMC has shared with leaders responsible for Anny cemeteries. This




                                                         6




                                                             87
DoD   IG Report, "Assessment   of U.S. Military Cemeteries"
Department of the Army and Executive Director, Army National Military Cemeteries Response




Smart Book provides practical guidance across all facets of cemetery operations, including
records management, updating new burials, when and bow to replace markers, how to deal with
historical marker and record anomalies, and other guidance to establish and maintain gravesite
accountability. This Smart Book and the ANC "Standards and Measures" provide the Army's
cemetery managers the industry standard for appearance, operations and accountability.


Observation 3. Recordkeeping Standards and Guidelines for Military Cemeteries Va.ry
Between Installations and Services
Cemetery recordkeeping was inconsistent across and within military Services. This occurred
because of a lack of clearly defined or inadequate standards and a failure to conduct oversight.
The resulted in a lack of clarity in records of accountability with respect to burials at military
cemeteries.

Conclusion:
Recordkeeping at the military cemeteries we visited was inadequate as a result of a lack of clear.
consistent, and complete guidance, and poor oversight. None of the cemeteries we visited were
free from errors, and we found only few consistencies in recordkeeping standards. Some
cemeteries had records management systems, while others had no system in place. Minimum
records should include a spreadsheet for each cemetery that lists each intermentlinumment and
an individual record for that burial. Both records should have, at a minimum, the following:


    •    Name (first, middle, last),                              •   Branch of service,
    •    Date of birth,                                           •   Relation to the sponsor, and
    •    Date of death,                                           •   Burial location.
    •     Date of interment,
Additionally, ifthe Services have a specific form relating to an interment or in urnrnent it must be
filled in accordance with their respective regulation. Cemetery interment maps/plats (to include
GIS) should be a requirement and standardized for better grave site identification and record
keeping.

Recommendations:
3.a. Under Secretary of Defense for Personnel and Readiness:
(I) Define what constitutes an intermentlinurnment record.
(2) Develop and require maintenance of a standard spreadsheet of a complete record of
interments.
(3) Standardize accurate maps.
(4) Develop a standard for temporary grave marking.
(5) Define and revamp the reservation system.
3.b. [ ... ]Executive Director of the Army National Military Cemeteries, update current
publications to reflect Under Secretary of Defense for Personnel and Readiness guidance.

Action taken or planned.




                                                         7




                                                             88
DoD   JG   Report, "Assessment of   U.S.   Military Cemeteries"
Department of the Anny and Executive Director, Anny National Military Cemeteries Response




Concur. The Office of the Executive Director, ANMC will update its regulation and pamphlet i n
line with new guidance from OSD. I n addition, the Office o f the Executive Director, ANMC is
in the process of codifying the externally-validated practices implemented at ANC, which could
serve   as   a useful foundation for other military cemeteries under the purview of the DoD.


3.a.(l) What constitutes an interment/inurnment record: Appropriately defining what
constitutes an interment record is extremely critical for creating a database schema capable of
managing a diverse history of military cemetery records. The Army still administers many
military cemeteries it established in the late           1800s; what the Army required to be hand-written in
a log book or annotated on various record of interment forms has varied significantly across the
Civil War, Western Expansion, Great Depression, and other American eras. Even at ANC, the
most famous graves are for the "Tomb of the Unknowns," dedicated to Soldiers unknown even at
the time of their interments. As a result, requiring all military cemeteries to list a minimal set of
attributes in order to achieve an "acceptable" or "good management" rating is very reasonable
for modem interments but cannot feasibly be implemented for all graves of Army cemeteries
with older interments. In short, through ANC's efforts to validate its over    400,000 decedents
spanning      150 years using repeatable processes that provide predictable results, ANC has
painstakingly learned that the cemetery decedent schema developed cannot apply universally to
all decedents. Correspondingly, the Army would also recommend that military cemeteries'
inspections criteria be mindful of these historical records management and administrative
challenges.


3.a.(2) In lieu of a standard spreadsheet of a complete record of interments: Arling1on
National Cemetery recommends establishing an enterprise level system for Cemetery operations.
Cemeteries represent a unique enterprise within the DoD, spanning at least two Joint Capability
Areas (managed by the        J-8): Human Capital Management (JCA 1.3.) and Base and Installation
Support (JCA 4.7.2). In addition to spanning two DoD domains, burial benefits and cemetery
management also have dependencies to the Department of Veterans Affairs (VA), including for
ordering headstones from the VA and providing the First Notice of Death in some cases.
Previously at ANC and across alJ other Army cemeteries, Army personnel would use an Army
system to schedule and record interments but then manually re-enter (or hand-write) all
headstone data into the VA's Burial Operations Support System (BOSS) to order the permanent
marker (headstone or niche cover). In January               2013, after partnering closely with the VA, ANC
began using its own Interment Scheduler System for ordering its markers from the VA (in
addition to scheduling and recording interments). With investments, this Internment Scheduler
System could be modernized and leveraged to support burial operations across all Army and/or
military cemeteries.


3.a.(3) In lieu of creating static standardized accurate maps: Arlington National Cemetery
recommends leveraging the Anny Enterprise Geographic Information System (GIS), "Army
Mapper," for the storage, maintenance and visualization of interment and gravesite plot data to
be shared across the Army and/or DoD Enterprise. Arlington National Cemetery, in
coordination with the Office of the Assistant Chief of Staff for Installation Management,
developed the Anny adaptation of the Spatial Data Standards for Facilities, Infrastructure, and




                                                             8




                                                                 89
DoD IG Report, "Assessment of U.S. Military Cemeteries"
Department of the Anny and Executive Director, Anny National Military Cemeteries Response



                         3
Envirorunent (SDSFIE) version 3.0 data model for interment data features; this data model was
developed for ANC and further enhanced for Army Post Cemetery GIS data collection. Army
Mapper provides the capability to leverage and share standard/compliant GIS data, symbology
and labeling techniques through a single GIS map interface. Army Mapper also ensures the
Army maintains an authoritative and accessible dataset throughout the Army Enterprise. With
data resident in an enterprise system, a cemetery map can be generated as needed or viewed in
real time through a web-based system.

3.a.(4) A standard for temporary grave marking: TheDA Pam 290-5 currently identifies the
Army's standard for a temporary grave marker, long used at ANC and most Army post
cemeteries. The Army will maintain this standard within the DA Pam update and enforce this
standard within its inspections, unless directed otherwise.

3.a.(5) The reservation system: Reservations are no longer legal at Army cemeteries. As part
of the records-to-grave accountability process, all cemeteries will validate their records and
identify only those reservations that are legally supportable, including based on the date they
were granted (for ANC, no later than 1 January 1962; for all other Anny cemeteries, no later
than l May 1975). Reservations recorded after these dates or for ineligible personnel will not be
honored, and any improperly-reserved plots will be made available for burials at all cemeteries in
an open status.



Observation 4. Issues with Contracting for Cemetery Services
There were isolated problems identified with contracting and payment for cemetery services at
different sites and with each of the services. These isolated problems stemmed from a lack of
command oversight and/or lack of knowledge and usually involved:

    •   Sub-contracting,
    •   Use of an IMP AC card, as opposed to a contract, for burial services,
    •   Possible acceptance of gratuitous services,
    •   Determination of burial eligibility by a contractor, and
    •   Maintenance lapses including damaged headstones and overall cemetery site appearance.

This resulted in isolated maintenance lapses and the possibility of lawsuits.

Conclusion:
Contracts covered burial related services or cemetery maintenance responsibilities. There was
no consistency between military services and individual installations as to type of contracts, or
whether the activities were performed by government employees instead of contractors. Issues
pertaining to contracts were identified and brought to the attention of appropriate personnel as
warranted.



3 The SDSFIE is the GIS database schema standard required by the OSD-Defense Installation Spatial Data
Infrastructure Group.




                                                       9




                                                           90
DoD lG Report, "Assessment of U.S. Military Cemeteries"
Department of the Army and Executive Director, Army National Military Cemeteries Response



Recommendations:
4.a. Executive Director of the Army National Military Cemeteries:
(1) Direct the contracting officer representative, for the site where unnecessary contract
maintenance is occurring, to cease performing tasks not expressly included in the contract
Statement Of Work and require all tasks be performed by the [entity] as expressly stated in the
Memorandum Of Agreement.
(2) lf the [entity] refuses to comply with the MOA, then take appropriate correction action to
enforce the agreement.
4.b. Service Chiefs:
(I) For the sites where the contractor is determining burial eligibility, direct the appropriate
installation commanders to ensure that government prior approval is received and that
subsequent review occurs in order to ensure key data is properly captured and recorded, and
burial services are provided to eligible applicants.
(2) Ensure Installation Commanders perform adequate cemetery maintenance, including
performance monitoring of contractor work and rectification of any observed lapses.

Action taken or planned     .




Concur with all recommendations. In addition:

 4.a.(l) and (2) Unnecessary contract maintenance: As recommended, the installation and
contracting officer representative in question have ceased performing tasks not expressly
included in the contract Statement Of Work. On 28 Mar 13, the installation and the [entity] also
completed an extensive review and contract modification of the 1998 Memorandum Of
Agreement (MOA), and the installation is requiring all tasks be performed by the [entity] as
expressly stated in the MOA. The Executive Director, ANMC met with the installation
leadership, contracting officer representative and the [entity] during its site visit, which occurred
after the DoD IG had visited. The [entity] was very receptive to completing their requirements
in line with the MOA and has remained a receptive, reliable partner since the Army re-initiated
contact. The [entity) has also repeatedly expressed its appreciation to work with the Army to
maintain this open cemetery in a manner befitting veterans and dependents-including for those
they are still interring.

4.b.(l) Burial eligibility verification: The Anny is complying with the requirement that
Department of Army civilian or military personnel must determine eligibility for those
requesting interment in an Army national or post cemetery. By the time the Executive Director,
ANMC conducted the site visits, all Army cemeteries had already aligned their practices with
this guidance. In addition, this eligibility verification requirement is also included within the
draft AR 290-5.

4.b.(2) lnstaUations perform cemetery maintenance, including contracting oversight:
Through its training of cemetery managers (see l.b.(2)) and external inspections of Arm)'
cemeteries (see l.b.(3)), the Office of the Executive Director, ANMC will help ensure
Installation Commanders perform adequate cemetery maintenance, including performance
monitoring of contractor work and rectification of any observed lapses.




                                                     10




                                                      91
DoD IG Report, "Assessment ofU.S. Military Cemeteries"
Department of the Army and Executive Director, Army National Military Cemeteries Response




Observation 5. Cemetery Funding
Installation commanders have no discrete funding allocated for military cemetery operations. A
lack of fiscal policy and guidance at OSD and Service level for fiscal support of cemetery
operations and an inability to identify the costs of cemetery operations were the apparent causes.
This has contributed to deficient cemetery maintenance and operations due to insufficient
funding.

Conclusion:
Not having clearly defined policy regarding the roles and responsibilities for the Services and
installations with respect to cemetery operations has created a systemic issue with respect to
maintenance and operations. OSD and the Services should develop a cemetery operations
costing method prior to allocating monies for operations. Insufficient installation funding or a
failure to prioritize use of funds has contributed to identified shortcomings provided to each
installation we visited. New DoD cemetery policy must lay out clear roles and responsibilities,
with funding obligated, and then follow up with appropriate oversight.

Recommendations:
5.b. [ . . ] Executive Director of Army National Military Cemeteries, ensure cemetery funding is
       .




established and maintained consistent with Office ofSecretary ofDefense guidance.

Action taken or planned.
Concur. The Secretary of the Army established the MDEP "VANC'' within POM FY 1 5- 1 9,
enabling the Army to consolidate all funding for its cemeteries. This MDEP includes funding for
the Anny national cemeteries, provided through the "Cemeterial Expenses, Army," and funding
for the Office of the Executive Director, ANMC and all other Army cemeteries, provided
through the "Operations & Maintenance, Army."

In addition, within the Office of the Executive Director, ANMC's TDA that went into effect 3
Apr 1 3, one of the four authorized military positions is for a 36A Resource Manager officer.
While this position is still vacant, once filled this officer will significantly help standardize and
validate costs across the cemeteries, even with the substantial variance in the types,
environments and amenities available at the Army cemeteries.

Additional Documentation:
 I) MDEP "VANC" brief, POM FY 15-19 (8 Jan 13)
2 ) Office of the Secretary of the Army, Emerging Manpower Issue: HQDA Element Executive
        Director, Army National Military Cemeteries
3) Table of Distributions and Allowances, Office of the Executive Director, ANMC (3 Apr 13)

Observation 6. Civilian Cemeteries
The operational and legal requirements and standards for civilian cemeteries located on military
installations have not been determined. This is due to missing legal records and a lack of
guidance from OSD and at the Service level for civilian cemetery operations and maintenance.
Additionally there is no discrete funding provided for the operations and maintenance of these



                                                    II




                                                      92
DoD   IG Report, ''Assessment   of U.S. Military Cemeteries"
Department of the Army and Executive Director, Army National Military Cemeteries Response




cemeteries. As a result, due to lack of guidance and funding, civilian cemetery operations and
maintenance has been inconsistent and below a standard that would present a respectable image
to the public.


Conclusion:
Installation commanders are doing what they think is right without appropriate guidance and
oversight from [the] Servi ce[s] and OSD. Generally, commanders are maintaining the civilian
cemeteries by: allowing and maintaining access to the sites, cutting the grass around and inside
each cemetery, removing fallen trees and limbs, and maintaining (if present) a fence around the
site. They usually maintain a "hands off' approach to the actual graves and headstones. The
result has been that gravestones as some of these cemeteries presented an overall unkempt
perception and did not favorably reflect on the military installation and Services.


Recommendations:
6. Under Secretary of Defense for Personnel and Readiness, in coordination with the Services
develop a civilian cemetery operations standard which also establishes a funding stream for the
maintenance and operations o f civilian cemeteries on the military installations and Services.


Action taken or planned.
Concur, but with significant concerns. The Office of the Executive Director, ANMC will update
its regulation and funding guidance in line with new guidance from OSD. The Office of the
Executive Director, ANMC recognizes the Army's responsibility to conduct basic grass
trimming, mowing and repair of marker damage caused by the military to ensure installations
maintain a professional appearance and do not threaten the life, safety and health of those
visiting the civilian cemeteries. However, the Office of the Executive Director, ANMC has
significant concerns using appropriated funds to operate and maintain civilian cemeteries beyond
this basic standard, including in times of constrained resources. The Office of the Executive
Director, ANMC has included the following limited standards within its draft regulation with
respect to civilian cemeteries, which could serve as a useful foundation for other military
cemeteries under the purview of the DoD.


a. Private cemeteries, Government-owned land.
( I ) For purpose of this regulation, a "private cemetery" is-
(a) Any cemetery or burial plot on Army property that, prior to its acquisition by the United
States, was used to inter individuals. If the cemetery was in place at the time of acquisition and
private graves remain in place, the cemetery is considered a private cemetery for the purpose of
this policy.
(b) Any cemetery or plot located on Army property and created by the U.S. Government to re­
inter remains recovered from land owned by the Government, and repatriated in compliance with
25 USC Chapter 32. Reburial of remains on Anuy property may only be authorized [as also
discussed later in the AR] if those remains were originally recovered from within the Army
installation's boundaries and were repatriated in compliance with        25 USC Chapter 32. If not
previously considered a cemetery, these areas will be designated private cemeteries or plots on
Govenunent-owned land.




                                                         12




                                                           93
DoD   lG Repon, "Assessment   of U.S. Military Cemeteries"
Depanment of the Army and Executive Director, Anny National Military Cemeteries Response



(2) There is no automatic right for burials in a private cemetery on Government-owned land,
unless the original acquisition of the site provided for future interments or other responsibilities.
The grant of new rights of access or use shall be in accordance with AR 405-80.
(3) The Army has certain responsibilities for those interred in private cemeteries that are now on
Army land. These responsibilities include providing neatly mowed and trimmed grass in
accordance with standards in DA Pam 290-5 and as appropriate to that geographical region, and
accommodating existing rights of access, visitation, and interment. New access rights may be
granted pursuant to AR 405-80. lfthe Army causes damage to markers, the Army will also
repair or replace markers in accordance with standards i n DA Pam 290-5.


b. Private cemeteries, privately owned land. In some instances, the Army chose not to acquire a
cemetery site and left fee simple title to the cemetery site in private ownership, although
surrounding property was acquired. These cemeteries fall outside of Army control except as
governed b y local agreements or Memorandums of Agreement between installations and private
parties. Access and use of this property is governed b y applicable Federal, state, and local laws
and regulations.




                                                       13




                                                         94
95
                                                                              )5 April 201 3
                                                                                N(MM&P)
                                                                             703.693.0481


Suh,ject: Comments on Draft Report - Assessment of U.S. Military Cemeteries


Office of the Inspector General, U.S. Department of Defense (DoDIG) conducted an
as!oicssment of U.S. Military Ccmett:rics in 2012 in accordance with National Defense
Authorization Act, Section 592, which directed an inspection of the cemeteries over
which the Military Services have jur:jsdiction, The draft report was provided with a
re4ucst for comments on applicable recommendations. Those recommendations and
  s       s
•'e pon es arc provided below.


Recommendation J.b.(l)- Designate a single POC at each installation witb
responsihility for bverall cemetery operations.


OASN(M&RA) Commeuts - Concur. Navy will designate and periodically update POCs
for responsib1lity for cemelcx:y operations for each of the Navy military cemeteries. DON
assumption is that cemetery operations refer to actions needed to inter I disinter remains
l'rmn a Military Cemetery, not grounds"keeping or maintenance for family cemeteries on
in$lallations.


Recommendation l.b.(2) - Ensure training opportunities are provided for individuals
identjfied with cemetery operations responsibilities.


OASN(M&RA) Comments - Concur. Nature of training opportunities to be provided r.o
(hose individuals identified by recommendation l.b.(l) will depend on management
twining guidance to be pro.vided by tbe Under Secretary of Defense (Personnel and
Re;:1diness) (USD(P&R)) in accordance with recommendation l.a. DON will support
USD(P&R) working g.roups or planni,ng events tasked with developing that guidance.


Recommendation J.b.(3) - Develop and implement a cemetery inspection program.

OASN(M&RA) Comments- Concur. A cemetery inspection program will be developed
      s
lo cn ure Navy M ilitary compliance with standards and practices as provided in
USD(P&R) guidance to be provided i n accordance with recommendation 2.a.

Recommendation l.b.£4) - Develop and Implement local cemetery management
Standard Operating Procedures.


OASN(M&RA) Comments - Concur. Local Standard Operating Procedures (SOPs) will
he crafted by individual cemeteries to meel management guidance, industry standards.
and best practices   as   identified by USD(P&R) guidance to be provided in accbrdance




                                              96
Subject: Comment.-; on Draft Report - Assessment of U.S. Military Cemeteries


with recommendation 2.a. Assumption is that these SOPs will refer to cemetery
operations onJy (as discussed in response to recommendation l .b.( 1 )).


RecommeJZdation 1.b.(5) -- Direct installation commanders to conduct a I 00 percent
r'et;ord,to-graves verification.


OASN(M&RA) Comments - Concur. Once USD(P&R) and the Services have developed
rccurds management criteria, a 100 percent record-to-graves verification will be
conducted by 'individual cemetery POCs on Military Cemeteries. DON assumption is
thai   this requirement does not apply to family I private cemeteries located on installations
due to age. condition. and non-availability of·ceme.tery records to installation
commanders.
Recommendation 2.c - Update the applicable manuals of each service to reflect
upeoming Under Secretary of Defense f0r Personnel and Readiness policy.


OASN(M&/lA) Comment_s - Cqnc.ur. Applicable Navy ti1a.t1Uals will be updated to
reflect forthcoming USD(P&R) policy. DON will support USD(P&R) working groups or
planning events tasked with developing that guidance.


Reco.mmendation J.b - Update current publications to reflect Under Secretary of
Defense for Personnel and Readiness guidance.


OASN(M&RA) Comments - Concur. Applicable Navy publications will be updated to
reflect forthcoming USD(P&R) policy. DON will support USD(P&R) wor1dng groups or
planning events tasked with developing that guidance.


R·ecommeJrdation s:h--- Ensure cemetery funding is established and maintained
consistent with Office of Seci"ctary of Defense guidance.

OASN(M&RA) Comments - Concur. DON will support USD(P&R) working groups or
planning events tasked with developing funding guidance. However1 request this
re�.:ommendation be addressed to Comptroller I Financial Management instead of
Manpower and Reserve Affairs directorates.




                                                2




                                              97
98
99
100
Appendix J. Report Distribution
Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Forces Command
Commander, U.S. Army Installation Management Command
Chief, National Guard Bureau*
Chief, U.S. Army Reserve*
Executive Director, Army Cemetery Program
Auditor General, Department of the Army
Inspector General of the Army

Department of the Navy
Secretary of the Navy
Commander, Naval Installation Command
Auditor General, Department of the Navy
Inspector General of the Navy

Department of the Air Force
Secretary of the Air Force
Auditor General, Department of the Air Force
Inspector General of the Air Force
Assistant Secretary of the Air Force for Installations, Environment and Logistics

Congressional Committees and Subcommittees, Chairman
and Ranking Member
Senate Committee on Armed Services
House Committee on Armed Services




                                               101
This Page Intentionally Left Blank




               102
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the
                                                                                                                                                           4800 Mark Center Drive
                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
